<html>
<title> - ENERGY BILLS</title>
<body><pre>[Senate Hearing 111-330]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 111-330

                              ENERGY BILLS

=======================================================================

                                HEARING

                               before the

                         SUBCOMMITTEE ON ENERGY

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                                   ON
                                     

                           S. 737                                H.R. 2729
 
                           S. 1617                               H.R. 3165
 
                           S. 2744                               H.R. 3246
 
                           S. 2773                               H.R. 3585
 
                           H.R. 957
 
 

                                     

                               __________

                            DECEMBER 8, 2009


                       Printed for the use of the
               Committee on Energy and Natural Resources


                               ------


                  U.S. GOVERNMENT PRINTING OFFICE
55-667 PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

BYRON L. DORGAN, North Dakota        LISA MURKOWSKI, Alaska
RON WYDEN, Oregon                    RICHARD BURR, North Carolina
TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARY L. LANDRIEU, Louisiana          SAM BROWNBACK, Kansas
MARIA CANTWELL, Washington           JAMES E. RISCH, Idaho
ROBERT MENENDEZ, New Jersey          JOHN McCAIN, Arizona
BLANCHE L. LINCOLN, Arkansas         ROBERT F. BENNETT, Utah
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
EVAN BAYH, Indiana                   JEFF SESSIONS, Alabama
DEBBIE STABENOW, Michigan            BOB CORKER, Tennessee
MARK UDALL, Colorado
JEANNE SHAHEEN, New Hampshire

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               McKie Campbell, Republican Staff Director
               Karen K. Billups, Republican Chief Counsel
                                 ------                                

                         Subcommittee on Energy

                  MARIA CANTWELL, Washington, Chairman

BYRON L. DORGAN, North Dakota        JAMES E. RISCH, Idaho
RON WYDEN, Oregon                    RICHARD BURR, North Carolina
MARY L. LANDRIEU, Louisiana          JOHN BARRASSO, Wyoming
ROBERT MENENDEZ, New Jersey          SAM BROWNBACK, Kansas
BERNARD SANDERS, Vermont             JROBERT F. BENNETT, Utah
EVAN BAYH, Indiana                   JIM BUNNING, Kentucky
DEBBIE STABENOW, Michigan            JEFF SESSIONS, Alabama
MARK UDALL, Colorado                 BOB CORKER, Tennesse
JEANNE SHAHEEN, New Hampshire

    Jeff Bingaman  and Lisa Murkowski are Ex Officio Members of the 
                              Subcommittee















                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Cantwell, Hon. Maria, U.S. Senator from Washington...............     1
Johnson, Kristina M., Under Secretary of Energy, Department of 
  Energy.........................................................     5
Stabenow, Hon. Debbie, U.S. Senator From Michigan................     4

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    33

                              Appendix II

Additional material submitted for the record.....................    45

 
                              ENERGY BILLS

                              ----------                              


                       TUESDAY, DECEMBER 8, 2009

                               U.S. Senate,
                            Subcommittee on Energy,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:35 p.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Maria 
Cantwell presiding.

  OPENING STATEMENT OF HON. MARIA CANTWELL, U.S. SENATOR FROM 
                           WASHINGTON

    Senator Cantwell. The U.S. Senate Committee on Energy and 
Natural Resources, Subcommittee on Energy, will come to order. 
I want to thank my colleagues for being here today to hear 
testimony on a list of legislative bills.
    H.R. 957, the Green Energy Education Act of 2009.
    H.R. 2729, to authorize the designation of national 
environmental research parks.
    H.R. 3165, the Wind Energy Research and Development Act of 
2009.
    H.R. 3585, the Solar Technology Road Map Act.
    S. 737, a bill to amend the Energy Independence and 
Security Act of 2007, to authorize the Secretary to conduct 
research and development demonstration to make more biofuels 
compatible with small non-road engine and for other purposes.
    S. 1617, to require the Secretary of Commerce to establish 
a program for awards of grants to states to establish revolving 
loan funds for small and medium sized manufacturers to improve 
energy efficiency.
    S. 2744, a bill to amend the Energy Policy Act of 2005 to 
expand authority for awarding technology prizes by the 
Secretary of Energy.
    S. 2773, a bill to require the Secretary of Energy to carry 
out programs to support the research and demonstration and 
development of commercial applications for offshore wind energy 
and other purposes.
    We're very pleased to have the Under Secretary of Energy 
here, the Honorable Kristina Johnson. So thank you very much 
for joining us today to speak on all of these legislative 
proposals from both the House and the Senate.
    The agenda for this is a hearing today so that we can hope 
to move these bills. Obviously it's important that the 
committee consider these bills on a regular order but at first 
receive some expert testimony on them. Under Secretary Johnson, 
we are eager to hear from you about the Department's views. 
Ultimately if funds are appropriated for them, you will have to 
administer these programs. It's important that we hear the 
Department's views first and foremost.
    I want to note as we consider energy related research and 
development programs and I'm sitting here with my colleague, 
Senator Stabenow from Michigan.I'm going to call on her in a 
minute along with the Ranking Member Risch, as soon as he shows 
up. I'd also like to highlight an item that is not on the 
agenda that Senator Stabenow and I worked hard on which was the 
establishment of a new 30 percent investment tax credit for 
manufacturing.
    We were able to get 80 votes in the Stimulus Package for 
this 48C tax credit for construction equipping renewable energy 
and for smart grid technology and manufacturing facilities. 
Senator Stabenow and I worked very hard on that. As we hear 
from the President in the next couple of days on his jobs 
agenda and as our colleagues move off of health care and on to 
jobs agenda, we are going to be working hard to resubmit that 
legislation in hopes that it will be a key component of our job 
activities moving forward.
    We think not only will it help create jobs here at home, 
but whole new industries that will support entire communities 
and manufacturing and clean equipment that we need to transform 
our Nation. The solar industry is a good case example of this.
    First, solar is a leading American photovoltaic model 
maker. They built their first pilot plant in 2005 in Ohio. But 
when they needed to scale up production generous manufacturing 
incentives and market demand in Germany and Malaysia led them 
away from the United States. If this clean energy manufacturing 
stint has become part of a stimulus bill it would launch a wave 
of new clean energy manufacturing facilities around the 
country. Just the stimulative effect for the solar industry 
alone would create 315,000 jobs.
    Let me also note for the record that Senator Stabenow 
introduced S. 2843, which is a companion bill to the House Bill 
that is on the schedule today, H.R. 3246 which we are 
considering today. The bill is co-sponsored by Senators Wyden, 
Brown and Nelson, of Florida.
    I would also like to take note that Senator Collins has 
provided testimony and cannot be here today on S. 2773 and S. 
737 that we will also include her comments in the record on 
that. That is a bill to authorize the Secretary to do research 
and demonstration projects on biofuels.
    [The prepared statements of Senator Collins follow:]
 Prepared Statements of Hon. Susan M. Collins, U.S. Senator From Maine
                                s. 2773
    Chairman Cantwell, Ranking Member Risch, and members of the 
subcommittee, thank you for holding this hearing today on the Offshore 
Wind Energy Research, Development, Demonstration and Commercial 
Application Act, which I introduced on November 16th.
    This legislation requires the Secretary of Energy to carry out a 
program of research, development, demonstration and commercial 
application to advance offshore wind turbine technology. This bill 
would advance the goal of the Department of Energy to produce 20 
percent of our nation's electricity from wind resources by 2030.
    Currently 61 percent of U.S. wind resources is in deepwater, 
greater than 60 meters (197 feet) depth. Winds at these locations are 
stronger and more consistent than closer to shore or on land. It will, 
however, take technological advances to harness this energy efficiently 
and cost-effectively.
    This bill would focus national efforts to develop offshore wind 
technologies. This should be a national priority because this source 
can produce clean, renewable energy for major U.S. population centers. 
The 28 coastal U.S. states use 78 percent of the electricity in the 
U.S. For example, Maine's offshore wind resource is close to the 55 
million people who live in New England, New York, New Jersey and 
Pennsylvania. This is 18 percent of the total U.S. population.
    Developing cost-competitive offshore wind technology will require 
improvements in the efficiency, reliability, and capacity of offshore 
wind turbines and reductions in the cost of manufacturing, 
construction, deployment, generation, and maintenance of offshore wind 
energy systems. That is why my bill directs the Secretary of Energy to 
support existing university centers and establish new centers to 
support research, development, demonstration and commercial 
application. The bill authorizes $50 million annually over ten years 
for:

  <bullet> the design, demonstration, and deployment of advanced wind 
        turbine foundations and support structures, blades, turbine 
        systems, components, and supporting land-and water-based 
        infrastructure for application in shallow water, transitional 
        depth, and deep water offshore;
  <bullet> full-scale testing and establishment of regional 
        demonstrations of offshore wind components and systems to 
        validate technology and performance;
  <bullet> assessments of U.S. offshore wind resources, environmental 
        impacts and benefits, siting and permitting issues, exclusion 
        zones, and transmission needs for inclusion in a publically 
        accessible database;.
  <bullet> design, demonstration, and deployment of integrated sensors, 
        actuators and advanced materials, such as composite materials;
  <bullet> advanced blade manufacturing activity, such as automation, 
        materials, and assembly of large-scale components, to stimulate 
        the development of a U.S.-blade manufacturing capacity;
  <bullet> methods to assess and mitigate the effects of wind energy 
        systems on marine ecosystems and marine industries; and
  <bullet> other research areas as determined by the Secretary.

    Again, I extend my appreciation to Chairman Cantwell and Ranking 
Member Risch. This bill would support critical renewable energy 
research that would help reduce our use of fossil fuels and improve our 
energy security.
                                 s. 737
    Chairman Cantwell, Ranking Member Risch, and members of the 
subcommittee, thank you for holding this hearing today on the Biofuels 
Compatibility Act of 2009, which I introduced on March 30th with 
Senator Mark Udall. This legislation would amend the Energy 
Independence and Security Act of 2007 to expand on a research, 
development, and demonstration program, authorized in that bill, to 
include efforts to make biofuels more compatible with small non-road 
engines.
    The Energy Independence and Security Act of 2007, directed the 
Secretary of the Department of Energy (DOE), in coordination with the 
Secretary of the Department of Transportation (DOT) and in consultation 
with the Administrator of the Environmental Protection Agency (EPA), to 
carry out a program of research and development regarding the impact 
that biofuels, like ethanol, may have on existing fuel storage and 
delivery infrastructure used for petroleum-based fuels. It is critical 
that these biofuels also are safe to use in operating small non-road 
engines. My bill requires these agencies to expand their research 
program to include small engines such as those in snowmobiles, boats, 
lawnmowers, and chainsaws. In my state, the only fuel generally 
available is an ethanol-gasoline fuel blend with 10 percent by volume 
of ethanol. Many communities across the country have similar 
restrictions of fuel availability, which makes this legislation 
especially timely and important.
    Previous testing done through DOE shows that increased ethanol 
content in smaller engines creates a leaner burning mixture, which may 
increase idle speed on some small engines, creating unanticipated 
clutch engagement on equipment such as chainsaws and handheld trimmers. 
Also, fuel ethanol is more corrosive and less efficient than 
traditional gasoline blends. During these difficult economic times, 
equipment damage due to ethanol-gasoline fuel blends only adds to the 
many challenges facing Maine's farmers, fishermen, independent 
woodsmen, and recreational industry.
    As we pursue strategies to lessen our dependence on foreign oil, we 
must also take action to ensure that ethanol fuel blends are safe and 
efficient for small engines. I urge my colleagues to support this 
important legislation.
    Again, I extend my appreciation to Chairman Cantwell and Ranking 
Member Risch. It is important that people throughout the country, who 
depend daily on the nation's fuel supply to power their tools and 
recreational vehicles and boats, can depend on the fuels approved for 
sale in general commerce. I look forward to working with them to 
advance this legislation.

    Senator Cantwell. So again, Under Secretary Johnson, we're 
glad that you are here today to testify on all of these bills.
    I will certainly call on the ranking member when he shows 
up.
    But now I'd like to, if I could, call on my colleague, 
Senator Stabenow, to address the legislation she's here to 
discuss.
    Then we'll get to you, Under Secretary Johnson. Thank you.

 STATEMENT OF HON. DEBBIE STABENOW, U.S. SENATOR FROM MICHIGAN

    Senator Stabenow. Thank you, Madam Chair.
    I first want to thank you for partnering with me on so many 
items that effect manufacturing and both in clean energy and in 
a number of other areas. We have been able to partner on the 
Finance Committee as well as here. I appreciate the fact that 
you understand, as I do, that we need to make things in this 
country. That that's really what this is all about is the 
ability to make things in America and create jobs and strong 
businesses and put people back to work.
    Madame Under Secretary, it's great to see you again.
    I did want to comment on the legislation that I've 
introduced, S. 2843. Also commend my colleague in the House, 
Congressman Gary Peters, who's done a terrific job of passing 
this legislation in the House of Representatives. I do think 
it's important that we also acknowledge the fact that in the 
Recovery Act that we passed at the beginning of the year. We 
have been able to move the ball forward with, as the Chair 
indicated, the 30 percent manufacturing tax credit for clean 
energy technology.
    It's wonderful to have an Administration that gets it, 
quite frankly, when we put forward the fact that we needed to 
focus on manufacturing technology development and deployment. 
Equipment going to plants, retooling plants and so on. There 
was not a moment of hesitation from the Administration.
    So I appreciate that very much, the fact that there's an 
understanding that yes, we need R and D, but we need to be able 
to go farther. As I said, put boots on the ground and actually 
be able to retool and help offset the costs of equipment and be 
able to get us all the way there in terms of creating 
manufacturing jobs. So I thank you very much for that.
    I also want to mention the fact that Senator Brown has 
legislation. I'm a co-sponsor of the Impact Bill which would 
also help small and medium sized manufacturers. I think that's 
an important piece that we need to be focused on as well.
    According to the Michigan Manufacturer's Association we 
have more than 700 auto suppliers in Michigan. We are proud of 
that. That totals more than 50 percent of the North American 
auto supply base.
    This is not about rust belt technology. It's about advanced 
manufacturing. I also want to say I saw someone slipping in the 
back, a friend of mine, who does work, major work, on advanced 
manufacturing. Madame Chair, Chip McClure, from ArvinMeritor, I 
saw in the back.
    Chip, it's nice to see you. ArvinMeritor is at the front 
end of leading technologies and batteries, yes, for trucks as 
well as for cars. So we're really glad that you're here today 
as well.
    The Advanced Vehicle Technology Act, Madame Chair, provides 
funding for advanced vehicle technology research and 
development in the Department of Energy. We know that this was 
spur innovation. Ensure that America leads the world in 
inventing, developing and manufacturing technologies that will 
power vehicles for the future.
    Around the world other nations are making tremendous 
investments. In fact I think it's important to note that we 
have, I believe, it's $280 million a day that China is now 
investing in clean energy technology. Shame on us if in this 
new energy revolution we're not the ones creating the jobs here 
in America. Shame on us if we let that technology and those 
jobs go overseas.
    So, Madame Chair this is about building engines and 
batteries and other components. We also have considered an 
additional natural gas vehicle bill, in my legislation, that 
passed in the House of Representatives. These bills, combined 
together, put forward a bipartisan effort to help us retool for 
new markets, move forward on advanced manufacturing.
    It certainly is critical that we do this now. I wish we had 
done more sooner. We've worked on efforts to do more sooner. 
But right now this is an opportunity to move as quickly as 
possible.
    So I thank you for the time. I would very much appreciate 
my colleague's support.
    Senator Cantwell. Thank you, Senator Stabenow.
    Senator Barrasso, did you want to make a statement?
    Senator Barrasso. Thank you very much, Madame Chairman. I'm 
delighted to hear from Dr. Johnson first. Then perhaps, make a 
statement and some additional questions.
    Thank you, Madame Chairman.
    Senator Cantwell. Thank you for that. I think when Senator 
Risch comes we'll allow him to make an opening statement. But 
since he's not here, Under Secretary Johnson, we'll let you 
proceed.
    Again, thank you for your visits to the Pacific Northwest 
both on visiting the Hanford side as well as the other 
activities to focus on job creation. So, thank you for being 
here today.

 STATEMENT OF KRISTINA M. JOHNSON, UNDER SECRETARY OF ENERGY, 
                      DEPARTMENT OF ENERGY

    Ms. Johnson. Thank you, Madame Chair, Ranking Member Risch 
and members of the subcommittee for the opportunity to be here 
today to give the Department of Energy's assessment of several 
energy bills currently under consideration. We appreciate your 
interest in the views of the Department of Energy on these 
bills. Over many years and many Administrations, the Department 
has enjoyed an open and productive relationship with this 
committee. Those of us serving under President Obama certainly 
plan to continue and strengthen that relationship.
    We are encouraged by the committee's commitment to continue 
to improve on the substantial and positive investment made in 
clean energy through legislation enacted in recent years. In 
particular, we wish to thank you for all the hard work this 
committee has put into the Energy Policy Act of 2005, the 
Energy Independence and Security Act of 2007, the Clean Energy 
portions of the American Recovery and Reinvestment Act of 2009 
and this year's reporting of the American Clean Energy 
Leadership Act. Additionally, I want to thank the sponsors of 
the bills we are discussing today, from both sides of the aisle 
and both sides of the Capitol, for their hard work on clean 
energy legislation.
    Given the brief amount of time I have today I will 
summarize the Department's views and recommendations regarding 
several of these bills. A detailed analysis of each is 
contained in my prepared statement which I have submitted for 
the record.
    First I will address H.R. 957, the Green Energy Education 
Act. Adequately preparing our work force is a subject that grew 
near and dear to my heart during my 25 years as an educator. A 
general work force deficiency is growing across the energy 
sector.
    The rapid deployment of new energy technologies coupled 
with the fact that 40 to 60 percent of energy utilities' 
skilled workers and engineers are eligible to retire by 2012 
reinforces the need for a broad approach to address the green 
jobs development and training challenge. To this end, the 
Department already has been working closely with the National 
Science Foundation to strengthen the scientific, technology and 
engineering and math education programs at the technical, 
undergraduate and graduate levels.
    While H.R. 957 would advance the Department's energy 
technology development mission in the specific arena of 
building technologies, we think that the scale of the challenge 
demands a more comprehensive approach. We believe that this 
bill could be improved to authorize activities beyond what the 
Department is already undertaking. To more fully address the 
larger issue of energy education, green jobs creation and work 
force training that extends beyond buildings.
    Turning next to H.R. 3246, the Advanced Vehicle Technology 
Act of 2009, we believe this act would enable the Department to 
build on its continuing efforts to improve existing vehicle 
technologies and emphasize other modes of transportation to 
significantly reduce passenger and commercial vehicle miles 
traveled. We also believe the bill generally covers an 
appropriate technology portfolio. It includes well placed 
interest in heavy duty vehicles and is well aligned with prior 
year program budgets.
    We do, however, have some concerns regarding the hydrogen 
and fuel cell activities authorized in the bill which are 
detailed in my written testimony.
    H.R. 3585, the Solar Technology Road Map Act, includes 
several features that would support the Department's continuing 
vision for the solar energy technologies program. We are 
enthusiastic about the funding levels proposed. The road map 
concept is consistent with the Department's prior efforts to 
establish ambitious, yet achievable targets for clean energy 
technologies.
    In fact, the existing solar program is already working with 
industry representatives and others to develop a solar vision 
study which will look at opportunities to achieve 10 to 20 
percent of the Nation's electricity generation from solar 
technologies by 2030. While we welcome additional industry 
input and funding for demonstration projects the Department is 
concerned that the bill would place the Department's solar 
program under the watch and direction of a semi-autonomous 
committee. This is problematic for a couple reasons.
    First, it would bind a Federal agency's research and 
development efforts to the recommendations of a non-
governmental entity.
    Second, constraining the flexibility of the Department to 
such an entity would hinder the Department's ability to respond 
to an ever changing research and development landscape as often 
diverse sources of information and changing situations arising 
from yet unknown, but expected outcomes of the Department's 
research and development efforts.
    Again the support Congress has shown for solar technologies 
in recent years has been encouraging and exciting. We would 
encourage Congress to stipulate that the committee would 
provide the kinds of non-binding advice and recommendations 
traditionally provided by publicly chartered, Federal advisory 
committees rather than a binding approach.
    Finally I'll offer a few comments on S. 1617, investments 
for Manufacturing Process and Clean Technology Act of 2009 and 
S. 2744, Carbon Dioxide Capture Technology Act of 2009. In the 
case of the former, the Department appreciates the committee's 
support for improving energy efficiency across the 
manufacturing sector, a goal the Department shares. I am 
pleased to note the Department is already working to carry out 
many of the bills goals through work of its own or by 
collaborating with other Federal and State agencies, including 
the Department of Commerce.
    We stand ready to work with this committee and the Commerce 
Department to consider how the bill can be improved to draw 
upon our deep, domain knowledge and build off our existing 
programs.
    S. 2744 would authorize the creation of a ``C Prize,'' 
similar to other authorized energy technology competitions to 
foster novel technologies that separate carbon dioxide from 
dilute sources. The Department supports the creation of such a 
prize as we consider carbon capture to be an essential tool in 
the mitigation of greenhouse gas emissions. As currently 
proposed, however, the bill's recommendations may be overly 
prescriptive, particularly in the area of intellectual property 
protection. We recommend that the Department be granted greater 
latitude in calling upon diverse sources of information in 
formulating such a prize.
    In the interest of time, I'd refer you to my prepared 
statement where you will find the balance of the Department's 
detailed recommendations on these and the other proposed bills. 
I'd like to thank you again for the opportunity to testify. We 
look forward to working with you on these and other energy 
proposals.
    Thank you.
    [The prepared statement of Ms. Johnson follows:]
 Prepared Statement of Kristina M. Johnson, Under Secretary of Energy, 
                          Department of Energy
    Madam Chairman, Ranking Member Risch, and Members of the 
Subcommittee, thank you for the opportunity to appear before you today 
to discuss several draft energy bills. We deeply appreciate your 
interest in the views of the Department of Energy (The Department) on 
these bills. Over many years and many Administrations, the Department 
has enjoyed an open and productive relationship with this Committee, 
and those of us serving under President Obama certainly want to 
continue and strengthen that partnership.
    In recent years, Congress has made a very substantial and positive 
investment in clean energy through the enactment of the Energy Policy 
Act of 2005 (P.L. 109-58), the Energy Independence and Security Act of 
2007 (EISA)(P.L. 110-140), and the clean energy portions of the 
American Recovery and Reinvestment Act (P.L. 111-5).
    This year, the Committee has proposed further investment and we 
thank you for all your hard work in reporting the American Clean Energy 
Leadership Act (S. 1462). As President Obama said while dedicating a 
new solar plant in Central Florida, ``At this moment, there is 
something big happening in America when it comes to creating a clean 
energy economy. . . . And I have often said that the creation of such 
an economy is going to require nothing less than the sustained effort 
of an entire nation--an all-hands-on-deck approach similar to the 
mobilization that preceded World War II or the Apollo Project.''\1\
---------------------------------------------------------------------------
    \1\ From ``Remarks by the President on Recovery Act Funding for 
Smart Grid Technology.'' Press release. October 27, 2009. http://
www.whitehouse.gov/the-press-office/remarks-president-recovery-act-
fundingsmart-grid-technology.
---------------------------------------------------------------------------
    The American Recovery and Reinvestment Act 2009 (The Recovery Act) 
alone provided the Department with $36.7B in appropriations--$32.7 
billion in grant and contract authority, $4 billion in credit subsidy 
for loan guarantees, plus $6.5 billion in borrowing authority for the 
Power Marketing Administrations. These funds will support some $100 
billion in clean energy and environmental clean up projects when 
leverage and cost share are included, creating hundreds of thousands of 
jobs and providing a meaningful down payment on the nation's energy and 
environmental future.\2\
---------------------------------------------------------------------------
    \2\ The Department has been funded at $36.7 billion in Recovery Act 
dollars, after $2 billion of the original $38.7 billion was redirected 
to the Cash for Clunkers program.
---------------------------------------------------------------------------
    For this hearing, I would like to offer the Department's views on 
nine proposed bills, as the Subcommittee has asked. These bills are: 
H.R. 957, H.R. 2729, H.R. 3165, H.R. 3236, H.R. 3585, S. 737, S. 1617, 
S. 2773, and S. 2744. I will address each bill in order of introduction 
starting with the House bills, except the two wind bills, which I will 
address together.
                  h.r. 957--green energy education act
Background
    A cornerstone of The Department's mission is to create an 
energyliterate generation of skilled workers, scientists, and 
innovators who can accelerate the transition to a clean energy economy 
and ensure U.S. global competitiveness. The Administration is deeply 
committed to promoting the creation of green jobs.
    While the Department appreciates H.R. 957's focus on building 
technologies, we would like to impress upon the Committee that a 
general workforce deficiency is growing across the energy sector. The 
rapid deployment of new energy technologies, coupled with the fact that 
40 to 60 percent of energy utilities' skilled workers and engineers are 
eligible to retire by 2012\3\ reinforces the need for a broad approach 
to address the green job development and training challenge.
---------------------------------------------------------------------------
    \3\ Center for Energy Workforce Demand 2007 Report: Gaps in Energy 
Workforce Pipeline.
---------------------------------------------------------------------------
    To this end, the Department works closely with the National Science 
Foundation (NSF) in a number of areas to strengthen scientific 
educational programs at the technical, undergraduate, and graduate 
levels. These projects are aimed at creating a pipeline beginning at 
the K-12 level and extending through the post-graduate level to ensure 
the ongoing development of a workforce with the skills and capabilities 
to create and scaleup innovative energy technologies and improve 
processes over the long-term. Further, the Department is already 
closely coordinating with NSF on education, green jobs training, and 
workforce development. The Department recognizes the importance of 
leveraging NSF resources, and is already taking proactive steps to 
solidify a stronger working relationship with our colleagues.
    H.R. 957 would facilitate stronger collaboration between the 
Department and the National Science Foundation. As written, the 
legislation would authorize The Department to fund NSF's flagship 
interdisciplinary training program (IGERT) to educate architects and 
engineers to collaborate on high performance building technologies and 
practices.
    H.R. 957 assigns priority funding for applications encouraging 
partnerships between architectural and engineering schools. These 
fields are inextricably intertwined, and can advance energy efficiency 
in the design and construction of high performance buildings.
    By supporting multidisciplinary graduate education and curriculum 
development activities, H.R. 957 will advance the Department's broad 
energy technology development mission. The bill recognizes the need to 
produce the next generation of engineers and architects who can work 
together from design concept to building operation to integrate energy 
efficiency and renewable energy more fully into the clean, competitive 
economy of the future.
    We would note here that the Department is already undertaking 
efforts in creating or funding green job training programs through 
existing authorities.
    Through the Recovery Act, the Department is funding approximately 
$140 million in training and technical assistance to develop 
standardized training curricula for residential energy workers, expand 
the number of weatherization training centers, and to create a national 
weatherization worker certification framework
    To serve the commercial building sector, the Department's Building 
Technologies Program has issued a Funding Opportunity Announcement 
(FOA) to support the development of training programs for building 
technicians, operators, energy auditors, and others responsible for 
building and operating high performance commercial buildings. These 
programs offer an opportunity to demonstrate how partnerships with the 
Department of Labor's public workforce system, labor management 
partnerships, education institutions such as community colleges, and 
community organizations can meet the workforce needs of the commercial 
building sector. The Department of Energy estimates that approximately 
$7.5 million will be available for multiple awards under this FOA.
    Utilities, colleges, universities, labor organizations, and trade 
associations, will be able to apply for over $100 million in grants 
issued through a FOA to improve smart grid technology education and 
implementation, as well as funding programs and curricula to train or 
retrain workers in the electric power sector.
Recommendations
    The Department is committed to achieving effective legislation to 
train and educate the new energy economy work force. The Department 
backs a coordinated, interagency approach and a balanced investment in 
education and training opportunities from kindergarten to adult job 
training, beyond just buildings. Although a good start, H.R. 957 could 
be improved to more fully address the larger issue of energy education, 
green jobs creation, and workforce training. I look forward to working 
with the Committee to strengthen this legislation.
            h.r. 2729--national environmental research parks
Background
    The Department's predecessor, the Atomic Energy Commission, 
established the first environmental research park in 1972 at the 
Savannah River Site in South Carolina in response to recommendations 
from the scientific community, other Federal agencies, and Congress. 
Between 1972 and 1992 six additional research parks were designated on 
The Department sites.
    The research parks, located on Department-owned land, represent six 
major eco-regions across the U.S. and provide research opportunities on 
natural ecosystems as well as on the environmental transport, cycling, 
and fate of radionuclides and other contaminants resulting from nuclear 
weapon development and testing. While the Department-sponsored 
researchers utilize the research parks to conduct high-priority mission 
relevant research, research park use is dominated by researchers 
sponsored by other Federal agencies including the National Science 
Foundation, the Department of Agriculture, Geological Survey, and the 
Department of Defense. This is due in large part to the attractiveness 
of these areas for general ecological-type research beyond the scope of 
the Department. Currently, stewardship of each research park is the 
responsibility of its respective laboratory management and operating 
contractor, with oversight by the managing Department program office.
    H.R. 2729 formally institutionalizes existing research parks by 
directing the Secretary to designate six National Environmental 
Research Parks as protected outdoor research reserves for the purposes 
of conducting long-term environmental research on the impacts of human 
activities on the natural environment.
    The bill authorizes $30 million annually--$5 million for each of 
the National Environmental Research Parks--for the Department's Office 
of Science to carry out eco-research and education activities.
    As a threshold matter, much of the research contemplated by this 
bill is already being performed. This legislation may also have a few 
unintended consequences.

  <bullet> Any official designation of park lands as ``protected 
        sites'' could impede the parks' future use for mission priority 
        activities and could restrict the Department's current 
        authority at the proposed sites.
  <bullet> While the research parks are well-suited for conducting the 
        research proposed by the bill, much of this research is outside 
        the scope of the Department's mission and core competencies. An 
        example would be H.R. 2729's proposed research regarding the 
        general ecology of the site and region in addition to 
        population biology and ecology. Such research should continue 
        to be supported by other, more appropriate Federal agencies.
Recommendations
    The Department recognizes that the current environmental research 
parks will continue to be a valuable resource for the overall 
scientific community, and we believe the current support arrangement is 
working well. As such, current Departmental activities and 
authorizations are sufficient.
            Wind
    The Department's Wind Program leads the Nation's efforts to address 
the barriers to the acceleration of large-scale deployment of land-
based and offshore wind energy.
    The Department's 2008 report, 20% Wind Energy by 2030, outlines an 
aggressive scenario in which the U.S. could generate 20% of its 
electricity by 2030, and it also identifies the technical and non-
technical barriers that must be overcome in order to achieve this. The 
Department's Wind and Hydropower Technologies Program is currently 
funding research to address the challenges identified by the report, 
which include reducing wind turbine capital costs by improving 
reliability, integrating wind energy into the power grid, addressing 
environmental and siting concerns, and building the domestic wind 
manufacturing industry.
    The Department is working to improve reliability of wind 
technology, by, among other things, reducing blade and gearbox 
failures. These failures present one of the greatest challenges to wind 
technology, as they require costly repairs and reduce investor 
confidence. To reduce the risk facing new turbine technologies, the 
Department is funding the creation of facilities that will help 
industry develop the next generation of large wind turbine designs. For 
example, a new $45 million large wind turbine drivetrain testing 
facility, and a new $25 million large blade test facility capable of 
testing 90 meter blades have been recently awarded under Recovery Act 
funding.
    To overcome wind energy integration challenges, the Department is 
developing tools and strategies, such as wind forecasting techniques, 
which will improve the integration of wind energy with the electrical 
grid. The Department is funding two state-of-the-art high penetration 
wind integration studies, the Eastern Wind Integration and Transmission 
Study and the Western Wind and Solar Integration Study that evaluates 
the impact of integrating up to 30% wind energy into the U.S bulk power 
system.
    To address the environmental and siting challenges, the Department 
funds projects that seek to understand and mitigate the impacts of wind 
energy development on wildlife. For example, the Department funds work 
at Texas Tech University and Kansas State University to assess the 
environmental impacts of wind energy on species of grassland birds. 
Habitat impacts on grassland species are a particular concern because 
extensive wind energy development could take place in grassy regions of 
the country. Three other projects funded by the Department will focus 
on developing tools to assess habitat risks when siting wind energy 
projects. Jones & Stokes Associates, Inc., The Nature Conservancy, and 
Pandion Systems, Inc. will each work to develop scalable, 
spatiallyexplicit tools to calculate potential environmental impacts 
from wind deployment. The Department also provides local and state 
governments with resources to help them make informed decisions about 
wind power in their communities.
    To build the domestic wind manufacturing industry, the Department 
works with companies to develop innovative manufacturing processes and 
to develop a qualified wind workforce. For example, the Department is 
funding PPG Industries in Shelby, NC to improve wind turbine blade 
manufacturing processes in partnership with MAGIndustrial Automated 
Systems in Hebron, KY. Current blade fabrication technology is labor-
intensive and prone to variability, resulting in incidences of 
manufacturing defects\4\. The PPG research will develop an automated 
fabrication methodology to deliver precise control of fiberglass 
preimpregnated material placement. This effort will reduce blade-to-
blade variability, lower incidences of premature failure, reduce cost 
of wind energy, and potentially increase blade manufacturing capability 
by as much as 100% when fully implemented by a manufacturer. To ensure 
an adequate wind workforce, the Department is funding a project with 
Southwest Applied Technology College in Cedar City, Utah, to provide 
students with practical and applied wind energy training. The school 
will target skilled unemployed workers and minority populations, 
especially Hispanic and Native Americans.
---------------------------------------------------------------------------
    \4\ Wetzel, Kyle K. ``Defect-Tolerant Structural Design of Wind 
Turbine Blades,'' American Institute of Aeronautics and Astronautics, 
Inc., 2009-2409.
---------------------------------------------------------------------------
    The Department's National Wind Technology Center (NWTC) in Boulder, 
Colorado is recognized internationally as a leading wind energy 
research and development facility. The NWTC has advanced wind turbine 
testing capabilities and provides an ideal site for testing turbines 
under extreme conditions; the NWTC experiences strong wind 
directionality and gusts up to 85 miles per hour at wind turbine hub 
height. This year, the NWTC installed a 1.5 MW wind turbine, the first 
utility-scale turbine to be owned by the Department, as well as a 2.3 
MW turbine operated in partnership with industry. These turbines are 
fully instrumented to act as test platforms for future R&D to further 
improve the reliability and performance of wind turbine components and 
to reduce the cost of wind energy. For example, load data from the 
foundations of these two research turbines will be used to help codify 
a national standard for permitting requirements of utility scale wind 
turbines. A uniform permitting standard would provide a significant 
improvement to the current patchwork regulatory schemes imposed on wind 
developers.
      h.r. 3165--wind energy research and development act of 2009
Background
    This legislation authorizes $200 million annually through 2014 for 
a cumulative investment of $1 billion dollars. H.R. 3165 authorizes the 
Department to carry out a wind R&D program to improve the energy 
efficiency, reliability, and capacity of wind turbines through new 
materials and technologies, optimize the design and adaptability of 
wind energy systems, and reduce the cost of construction, generation, 
and maintenance of wind energy systems. Finally, the bill requires the 
Department to fund merit-reviewed, cost-shared demonstration projects 
conducted in collaboration with industry.
    The Department currently has $80 million in appropriated funding 
for FY 2010 to pursue RD&D of wind energy technologies. The activities 
authorized in H.R. 3165 are largely consistent with much of the work 
currently underway at the Department, and with the Department's 20% 
Wind Energy by 2030 report, which identified the barriers and pathways 
for supplying 20 percent of the Nation's electricity from wind energy 
by 2030. Using ARPA-E funding, the Department has been able to finance 
breakthrough wind technologies, High Efficiency Shrouded Wind Turbine, 
FloDesign (Wilbraham, MA)\5\ and Adaptive Turbine Blades: Blown Wing 
Technology for Low-Cost Wind Power, PAX Streamline Inc. (San Rafael, 
CA)\6\, which are consistent with the wind program's goals.
---------------------------------------------------------------------------
    \5\ FloDesign Wind Turbine Corporation (Wilbraham, MA) will develop 
a new shrouded, axial-flow wind turbine known as the Mixer Ejector Wind 
Turbine (MEWT), which is capable of delivering significantly more 
energy per unit swept area with greatly reduced rotor loading as 
compared to existing horizontal axis wind turbines (HAWT). Prototypes 
will be built and tested, demonstrating the advantages of lightweight 
materials and a protective shroud that will reduce noise and safety 
concerns and accelerate distributed wind applications.
    \6\ PAX Streamline, Inc (San Rafael, CA), along with Georgia Tech 
Research Institute, will lead a project to adapt Blown Wing technology 
for wind turbines, culminating in a 100 kW prototype. Circulation 
control technology or ``Blown Wing'' technology creates a virtual 
airfoil by jetting compressed air out of orifices along a wing and has 
the potential to radically simplify the manufacture and operation of 
wind turbines. Unlike a fixed airfoil, a Blown Wing can be dynamically 
adjusted to maximize power under a wide range of wind conditions, and 
can be generated from a slotted extruded pipe that can be domestically 
manufactured at a fraction of the cost.
---------------------------------------------------------------------------
    H.R. 3165 recognizes the need to resolve the impacts of wind 
turbines on federal radar assets. These radars are used to ensure 
aviation safety, support homeland security, protect military assets, 
and enable timely weather warnings for public safety. The 
Administration realizes this is a critical unresolved issue.
Recommendations
    The Department would like to work with Congress to tighten Section 
3's proposed demonstration program to reflect the development status 
and needs of the wind industry. We urge the Committee to consider 
placing special emphasis on the demonstration of innovative offshore 
wind technologies, including integrated systems, components, 
structures, materials and infrastructure. Domestic, pre-commercial, 
leading edge technologies remain the most appropriate investment for a 
robust demonstration program. The U.S. has yet to install a single 
offshore wind turbine while Europe has over 1500 MW installed and a 
target of 40,000 MW by 2020. Investment by the U.S. government is 
critical for development of a domestic industry. There are numerous 
offshore wind projects proposed in the Great Lakes, such as the 
Cuyahoga County Project in Lake Erie, and numerous projects in the 
Northeast that should be supplied by U.S. manufacturers.
    The Department asks that the legislation include a specific 
authorization for environmental research. One set of persistent issues 
facing the wind industry are the environmental impacts associated with 
wind power facilities. Project developers must not only finance, 
construct, and maintain wind farms, but must also consider the effects 
of wind energy systems on the surrounding environment. As written, 
researching the impact of turbines on wildlife and natural habitats 
could be funded under the Section 12(b)(12) ``catch-all'' provision of 
this bill that enables the Secretary to determine if the Department 
should perform research in addition to the prescribed areas. However, 
given the significance of environmental issues associated with wind 
energy systems deployment, the Department would like to see a greater 
emphasis on addressing this important area of research in collaboration 
with other responsible federal agencies.
    The Department is currently funding efforts to evaluate the 
possible benefits of certain energy storage technologies to assist with 
wind integration. Areas of study include how the suite of power system 
flexibility options (including energy storage) can best be utilized to 
address wind variability issues; evaluation of the use of hydropower to 
assist with wind integration; and the study of how storage technologies 
can be integrated into wind power components to extend equipment 
operating life.\7\
---------------------------------------------------------------------------
    \7\ DOE is currently funding energy storage research through the 
Office of Electricity Delivery and Energy Reliability (OE), and pumped-
storage hydropower research and development through the Office of 
Energy Efficiency and Renewable Energy's Wind and Hydropower 
Technologies Program. The Wind Program works with these parties to 
coordinate and collaborate, but feels that continuing to fund these 
activities under the offices that are already working on storage makes 
more sense than creating separate storage activities in the Wind R&D 
bill.
---------------------------------------------------------------------------
s. 2773--offshore wind energy research, development, demonstration, and 
                   commercial application act of 2009
Background
    Only very recently has the U.S. government invested significantly 
in offshore wind technology research and development, and consequently, 
no domestic offshore wind systems or manufacturing base exist for the 
sector. In FY 2009 and FY 2010 the Federal Government began investing 
in offshore wind technologies, including an $8 million Recovery Act 
funded consortia led by the University of Maine that will deploy two 
floating offshore turbine prototypes and conduct research to optimize 
the design of floating platforms, while also providing wind energy 
career educational opportunities for university students.
    S. 2773 authorizes $50 million annually from FY 2011 through FY 
2021, for a cumulative investment of $500 million. S. 2773 requires the 
Department to carry out a comprehensive program of research, 
demonstration, and development of commercial applications for offshore 
wind energy to improve the efficiency, reliability, and capacity of 
offshore wind energy systems, at all water depths, while reducing costs 
throughout the supply chain.
    Further, the legislation supports offshore wind resource assessment 
work, while considering the technologies' environmental impacts, 
benefits, and mitigation techniques for marine ecosystems and industry. 
This research would also address the unique challenges to generating 
energy offshore, including siting and permitting issues, exclusion 
zones, and transmission needs.
    S. 2773 also authorizes the Department to award grants to 
institutions of higher education to establish one or more national 
offshore wind centers that meet specified requirements to focus on 
deepwater offshore floating wind energy technologies.
    S. 2773's authorization levels and timeframe appear consistent with 
prior Departmental and industry assessments necessary to deploy a 
national offshore R&D program focused on lowering deployment costs, 
ensuring high technical reliability, facilitating economic 
revitalization of U.S. port facilities, and mitigating environmental 
impacts.
Recommendations
    The Department estimates that only one-third of the cost of an 
installed offshore wind energy facility is represented by the wind 
turbine itself. Therefore, lowering the cost of offshore wind requires 
additional focus on electrical grids, project operation and 
maintenance, and installation and staging costs. The bill's 
authorization language should include research aimed at optimizing 
installation methodology, electrical transmission design, operations 
and maintenance practices, installation vessel design, and 
manufacturing and assembly. With no offshore wind turbines currently 
deployed in U.S. waters, this type of government support will be 
integral to accelerating early-stage offshore wind development.
    While the Department supports the establishment of a comprehensive 
national R&D program for offshore wind, Section 4 of the bill 
authorizing a national offshore wind energy center\8\ [emphasis added] 
is overly prescriptive and duplicative of the Department's recently 
announced deepwater offshore wind R&D award to a consortium led by the 
University of Maine. Three examples of S. 2773's language can 
illustrate why such a prescriptive approach may overlook opportunities 
for offshore wind. First, Section 4(b)(4) requires each ``center'' to 
have access to the Atlantic Ocean, the Gulf of Mexico, or the Pacific 
Ocean. This language precludes the Department from funding a center on 
the Great Lakes, which have significant offshore wind energy potential 
and have begun to attract investment from developers, such as the 
Cuyahoga County Project in Lake Erie. Second, although R&D on offshore 
wind in shallow and transitional depths is authorized by the bill, the 
national center created by the bill is restricted to only deepwater 
offshore wind systems. This legislative treatment favors one offshore 
technology over the R&D needs of shallow and transitional depth waters, 
with little policy or technical justification. Finally, Section 4's 
language requiring that universities be designated as lead institutions 
may prove to be an unnecessary constraint on otherwise qualified 
consortia applying to establish offshore wind centers.
---------------------------------------------------------------------------
    \8\ In short, the Wind Program supports the R&D section of the 
bill, but does not feel that it is appropriate to designate a national 
center at this time because the technology is new and committing to 
fund one or a small number of centers may ``lock in'' the technology 
development to the specific attributes of that location e.g. local 
technology expertise, physical attributes such as water depth of the 
nearest site for offshore development, turbine designs optimized for 
the wind speeds at that particular location, etc.
---------------------------------------------------------------------------
    The Department supports establishing a comprehensive National 
Offshore Wind Energy R&D Program as contemplated by S. 2773 in which 
multiple research, development, and demonstration projects play a 
critical role. Such projects should be established through grants 
awarded on a competitive basis.
          h.r. 3246--advanced vehicles technology act of 2009
Background
    Department-funded research has contributed heavily to the 
advancement of vehicle technologies. The advanced vehicle technologies 
in the Department's research portfolio can significantly reduce 
petroleum consumption, thereby strengthening our national energy 
security through both fuel substitution and energy efficiency. For 
example, plug-in hybrid electric vehicles with a 40-mile electric range 
using cellulosic E85 have the potential to reduce petroleum consumption 
by as much as 85% compared to conventional gasoline-powered internal 
combustion engine vehicles.\9\ The Department is not only developing 
the technologies to make vehicles more energy efficient, but is also 
considering the full life cycle impact of cars on the environment. For 
example, the Department research produced a 40 percent weight savings 
on a per-part basis for a mid-sized automobile with the development of 
quick plastic forming aluminum. We have also developed technology to 
reduce commercial vehicles' engine cradle (structural element that 
supports the engine) weight by 65-70 percent using magnesium. 
Currently, the Department is involved in the commercialization of a 
process that can salvage nearly all of the plastic in a vehicle 
(approximately 10% of the average vehicle's weight), not only 
preventing landfill waste but also displacing oil and natural gas and 
reducing the cost of plastics through recycling.
---------------------------------------------------------------------------
    \9\ Argonne National Laboratory Greenhouse Gases, Regulated 
Emissions, and Energy Use in Transportation (GREET) Model. Emissions 
associated with direct and indirect land-use change are not considered 
in this analysis.
---------------------------------------------------------------------------
    Other examples of technologies developed by the Department and 
being used by Industry include:

          Every U.S. hybrid vehicle sold has intellectual property from 
        the Department's Nickel Metal Hydride battery research, and 
        Chrysler plans to begin production on a Cummins engine 
        incorporating the Department's technologies which make its 
        internal combustion engine operate cleaner and more 
        efficiently. Lastly, collaborating with New Flyer, the 
        Department co-developed the technology for hybrid transit 
        buses, technology which has migrated to other applications such 
        as light trucks and crossover vehicles.

    The Department supports H.R. 3246, as the current Vehicle 
Technologies Program funding authorization expires at the end of FY 
2010. We believe the bill generally covers an appropriate technology 
portfolio, includes well-placed interest in heavy-duty vehicles, and is 
well aligned with prior year Program budgets.
Recommendations
    The Department agrees with the suite of technologies authorized in 
H.R. 3246. However, the inclusion of hydrogen and fuel cell activities 
in H.R. 3246 would result in duplicative authorizations and potential 
budgetary issues. Currently, Title VIII of the Energy Policy Act of 
2005 (EPAct 2005) serves as the authorizing language for the 
Department's hydrogen and fuel cell activities, and does not sunset 
until FY 2020. It is likely that hydrogen and fuel cell activities were 
included in H.R. 3246's activity list only because several hydrogen 
activities were included in the Vehicle Technologies FY 2009 
appropriation. However, these activities were moved back to the Fuel 
Cell Program for FY 2010, and are no longer part of Vehicle 
Technologies.
    Therefore, the Department respectfully requests to continue to rely 
on EPAct 2005's authorizations for the Department's Fuel Cell Program 
activities. The EPAct 2005 authorizing language provides sufficient 
authorization for current DOE activities, and removing H.R. 3246's 
hydrogen and fuel cell reference would avoid any unintended 
complications that can result from duplicative authorizations.
    H.R. 3246 would enable the Department to build on the Department's 
continuing efforts to improve existing vehicle technologies, as well as 
emphasizing other modes of transportation to significantly reduce 
passenger and commercial vehicle miles traveled. We look forward to 
working with the Committee and the Congress on this important 
legislation.
                h.r. 3585--solar technology roadmap act
                               background
    The goal of the Department's present Solar Energy Technologies 
Program is to make solar energy technologies cost-competitive with 
conventional grid electricity by 2015 and to enable a high penetration 
of solar generation energy within the U.S. This goal drives a number of 
projects and initiatives relating to photovoltaic (PV) and 
concentrating solar power (CSP) technologies and requires examination 
of critical issues relating to grid integration and the transformation 
of markets for solar technologies.
    We appreciate the strong Congressional support shown for solar 
technology development. The Recovery Act provides $118 million for 
solar initiatives, In October, the Advanced Research Projects 
Administration-Energy (ARPA-E) announced approximately $17.7 
million\10\ in solar grants, and Congress recently appropriated $225 
million in FY 2010 for the Department's Solar Program. This funding 
enables the Department to make prudent investments in applied research 
to further reduce the costs of solar technologies. I'd like to 
highlight a few of the R&D efforts currently underway at the 
Department:
---------------------------------------------------------------------------
    \10\ http://arpa-e.energy.gov/news.html

          Innovations arising from Department -funded R&D in the areas 
        of thin-film solar cells, high-efficiency single-crystal solar 
        cells, and very high efficiency gallium arsenide solar cells 
        have since been commercialized by companies such as First Solar 
        in Ohio, Sunpower in California, and Boeing/Spectrolab, also in 
        California. In August 2009, the Department announced over $37 
        million\11\ of awards for early-stage company investments--
        including those made through the Small Business Innovative 
        Research program--and $14 million in investment through the 
        national laboratories. This includes $5 million invested in CSP 
        technologies. We are currently working on the next generation 
        of solar technologies including kerfless wafering and 
        atmospheric thin film processing, which can lead to broader 
        market impact, lower manufacturing cost, and increased 
        conversion efficiency.
---------------------------------------------------------------------------
    \11\ http://www.energy.gov/news2009/7824.htm
---------------------------------------------------------------------------
          The Department is also investing in balance-of-systems (BOS) 
        technologies, the most significant cost barrier for PV. BOS 
        technologies are necessary to support full solar electricity 
        generation systems, but are separate from, for example, the 
        actual PV panel. BOS costs include items like inverters that 
        allow connection with the electric grid; they can account for 
        as much as half the total installed cost of a solar electricity 
        generation system, and so create substantial barriers to 
        lowering the cost of solar energy. As an example of the 
        Department's commitment in this area, the Department recently 
        announced awards for up to $11.8 million to five companies to 
        develop new inverter technologies under our Solar Energy Grid 
        Integration Systems program. Overall, we invested approximately 
        $122 million in this area in 2009, including $16 million in CSP 
        technologies. Some of these funds are going toward development 
        of inverters with advanced nano-material transformers that 
        provide lighter weight, longer life, and lower cost as well as 
        advanced residential control systems that can effectively 
        managed PV panels along with other household renewable and 
        conventional power systems to maximize time-of-day energy use.
          The Department is increasing its investment in large-scale 
        demonstrations of integrated photovoltaics and CSP systems. As 
        part of funding received through the Recovery Act, the 
        Department recently announced $37.5 million in high-penetration 
        solar deployment projects. Carried out by universities, and 
        utilities, with national laboratory partners to assess the 
        technologies, these projects seek to assess the impacts of high 
        levels of solarenergy penetration on the electric grid. 
        Investigations will include both voltage and frequency behavior 
        of the distribution and transmission feeder portions of the 
        grid in the presence of clear and intermittent solar 
        conditions. This information is important to defining a path 
        for 10% or greater penetration levels of solar in the grid and 
        also in defining the requirements for grid energy storage use.

    H.R. 3585, the Solar Technology Roadmap Act, as currently drafted, 
significantly alters the form and function of the Department's solar 
energy RD&D. We would like to draw the Committee's attention to 
concerns we have with the consequences of this alteration. First, the 
bill in effect changes the governance of the Department's Solar 
Program. Second, it changes the emphasis of the Program from cost 
effectiveness of technology to instead following a prescribed mix of 
solar demonstration projects.
    H.R. 3585 provides the Department an authorization level of $350 
million in FY 2011, rising in $50 million increments to $550 million in 
FY 2015. The aggregate authorization would total $2.25 billion over 
four years, far exceeding any previous authorization levels.
    We note, however, that H.R. 3585 would supplant previous 
authorities except for two provisions of the Energy Independence and 
Security Act of 2007 (EISA). It would become the de facto authorizing 
language for the Department's solar activities.
    Our first and greatest concern is that Sections 103 and 108 of the 
bill require the Department to form a semi-autonomous Committee that 
will largely govern the solarenergy activities at the Department. The 
proposed committee would be charged with producing a comprehensive 
analysis of recommendations for investing Federal RD&D dollars over 
near-, mid-, and long-term horizons based on current issues and 
barriers facing the industry. As written, the proposed legislation 
binds the Department's R&D efforts to the recommendations of the 
Roadmap Committee, requiring the Department to follow the Committee's 
recommendations for 75 percent of all appropriations by 2015. We urge 
the Congress instead to stipulate that the Committee would provide the 
kinds of non-binding advice and recommendations traditionally provided 
by publicly-chartered Federal advisory committees.
    Our second concern is that Section 105 specifies a solar-technology 
demonstration plan that may not embody the most appropriate scale of 
projects encompassing the most effective mix of technologies, as might 
be determined by the Secretary.
    As written, the proposed legislation prescribes a particular 
schedule of future solar demonstration projects, specified both with 
regard to project scale and with regard to technology mix. These 
particular project sizes and technology mixes may not provide the 
largest benefit to the Nation under future conditions which we are not 
likely to be able to foresee with any clarity.
    While the Department welcomes the support that the proposed 
legislation would provide to solar research and development, the 
Department is concerned that the legislation as written may not 
maximize public benefits.
    The existing Solar Program actively solicits and receives input 
from stakeholders in industry, the national laboratories, and academia, 
through its use of peer-review as well as from other formal and 
informal discussions over many years. For example, as part of an effort 
to develop a PV Manufacturing Initiative, the Solar Program worked this 
fall with the National Academies of Science to hold two day-long 
workshops with industry and other participants to discuss the needs of 
the industry and the role of the Federal Government to promote the 
domestic industry and industry standards.
    The Solar Program is also now working with industry representatives 
and others to develop a Solar Vision Study which will look at 
opportunities to achieve 10-20 percent of the Nation's electricity 
generation from solar technologies by 2030. We intend to strengthen our 
external review process in the near future with an advisory board--
which can be viewed as somewhat analogous to the Roadmap Committee 
envisioned in the draft bill--that will meet several times a year to 
review the entire solar program.
    While we welcome additional industry input and funding for 
demonstration projects the Department is particularly concerned about 
this bill's practical effects, which are to constrain the flexibility 
the Department has to respond to diverse sources of information and 
exploit new breakthroughs in technology development, such as those made 
through investment in ARPA-E grants and the HUBs.
Recommendations
    The Department strongly urges the Committee to consider the above 
concerns when reviewing the proposed legislation. Providing the most 
effective solar technology research and development programs requires 
the Secretary and The Department to make a series of constantly 
evolving judgments. It is important that we be allowed to call on 
multiple sources of information when we formulate our solar technology 
R&D priorities, and that we be responsive to provided information, even 
information that will only become available as R&D programs and 
national markets progress.
               s. 737--biofuels rd&d for nonroad engines
Background
    Through RD&D efforts geared toward the development of integrated 
biorefineries, the Biomass Program is helping transform the Nation's 
renewable and abundant biomass resources into cost competitive, high 
performance biofuels, bioproducts, and biopower. To that end, the 
Biomass Program's R&D efforts support the goal of the EISA's Renewable 
Fuel Standard that requires 36 billion gallons of renewable fuel by 
2022.
    DOE is currently evaluating the impact of engine durability and 
emissions for use of higher ethanol blends in vehicles and small 
nonroad engines. The Department has completed emissions' lifetime 
testing of hand-held lawn and garden equipment, including line 
trimmers, leaf blowers, and generators. These results are reported in 
Effects of Intermediate Ethanol Blends on Legacy Vehicles and Small 
Nonroad Engines, Report 1--Updated\12\, which is available online.
---------------------------------------------------------------------------
    \12\ The report is available online at http://www.nrel.gov/docs/
fy09osti/43543.pdf)
---------------------------------------------------------------------------
    Over the past two years and pursuant to this small nonroad engine 
effort, the Department has coordinated with the engine industry to 
identify key issues, testing needs, and additional participants. 
Spearheaded by the small non-road industry's Engine Manufacturers 
Association and the automotive and oil industries' Coordinating 
Research Council, this effort will result shortly in a compilation of 
industry input and opinions.
    S. 737 clarifies to the ``Biofuels Distribution and Advanced 
Biofuels Infrastructure'' Program authorization in EISA Section 248. 
The proposed legislation amends both the scope of the program in 
Section 248(a) to include the impact of biofuels on small engines, as 
well as requiring that impact on small engines be a focus area in 
Section 248(b). As enacted, the current program's authorization 
language does not preclude the Department from undertaking these 
activities, and the legislation's section 248(b)(9) provides an 
additional ``catch-all'' provision that the Secretary could use to 
implement such a program.
    By supporting the investigation of problems associated with the use 
of biofuels in small nonroad efforts, S. 737 is in line with research 
needs already identified by the Department concerning use of higher 
renewable fuel blends necessary to meet Renewable Fuel Standard 
requirements. The Department is already working on research in this 
area, under its existing authorizations in both its Biomass and Vehicle 
Technologies Programs. In particular, the Department is funding testing 
of chainsaws, motorcycles, snowmobiles, and marine engines. Thus, S.737 
may be useful only to the extent that it underscores Congress' explicit 
support for this effort.
    It is also worth noting that EISA's original Section 248, which S. 
737 amends, did not prescribe any authorization levels for the program, 
and specific authorizations to carry out this section have not been 
provided.
Recommendations
    The Department understands the need to investigate potential issues 
with the utilization of higher-biofuel blends in small nonroad engines 
and already funds a number of research projects on nonroad engines. As 
a result, the Department does not see a need for this amendment.
  s. 1617--investments for manufacturing process and clean technology 
                              act of 2009
Background
    The Department appreciates the committee's support to improve 
energy efficiency across the manufacturing sector. I am pleased to note 
that the Department is already working to carry out many of the bill's 
goals.
    Through a variety of programs, the Department provides assistance 
to energy infrastructure investment to businesses of all sizes. The 
Loan Guarantee Program (LGPO), Energy Efficiency and Conservation Block 
Grants (EECBG), and Small Business Innovation Research (SBIR) Program 
all act as funding mechanisms to address the Nation's energy 
infrastructure and generation needs.
    Structurally, the Office of Energy Efficiency's (EE) Block Grant 
program most closely resembles S. 1617's proposal to create revolving 
loan funds to the states. A portion of the EE block grant structure is 
specifically targeted towards the creation of revolving loan funds and 
may be reinforced by recent House legislation.\13\ Through the Recovery 
Act, $37 million\14\ was announced to support SBIR with an emphasis on 
near-term commercialization and job creation. And although current Loan 
Guarantee solicitations do not have special provisions to promote the 
award of loans to small businesses, LGPO is in the process of 
developing a Manufacturing Solicitation that would be open to Small and 
Medium Enterprises (SMEs) under our Financial Institutional Partnership 
Program (FIPP). Through the current solicitation, LGPO will continue to 
finance construction of manufacturing plants, as it did with its first 
loan guarantee award to Solyndra, Inc. of Fremont, CA, a SME.
---------------------------------------------------------------------------
    \13\ H.R. 2936: Bill to Underwrite Increased Lending to Domestic 
(BUILD) Manufacturing Act http://www.govtrack.us/congress/
billtext.xpd?bill=h111-2936.
    \14\ http://www.energy.gov/news2009/7824.htm.
---------------------------------------------------------------------------
    Concerning Sec 137 (bb)(2), the Department, in consultation with 
the Department of Commerce, should make the determination of what is 
and is not an energy efficient product. Such a structure would be 
consistent with the longstanding positive working relationship between 
the two agencies on programs such as the EnergyStar rating system. We 
recommend changing the authority from the Secretary of Commerce to the 
Secretary of Energy, in consultation with the Secretary of Commerce.
Recommendations
    The Department has a track record of collaboration with other 
federal and State programs, including a Memorandum of Understanding 
between DOE's EERE and the Department of Commerce's Manufacturing 
Extension Partnership Program. The Department stands ready to work with 
this Committee and DOC to consider how the bill can be improved to draw 
upon the Department's deep domain knowledge and build off of the 
Department's existing programs.
         s. 2744--carbon dioxide capture technology act of 2009
Background
    EPAct 2005 authorized the Department to implement several prize 
competitions for breakthroughs in RD&D and commercial applications of 
energy technologies. Specifically, EPAct 2005 authorized the Freedom 
Prize to reduce the country's dependence on foreign oil by rewarding 
innovative deployment of existing technologies in industry, the 
military, schools, governmental entities, and communities. EISA amended 
EPAct 2005 to include additional prize competitions, including the 
Hydrogen Prize (H-Prize) and the Bright Tomorrow Lighting Prize (L-
Prize). The HPrize sought to provide incentives and reward advances in 
technologies, components, or systems related to hydrogen production, 
storage, distribution, and utilization, while the LPrize seeks to spur 
the development of ultra-efficient solid-state lighting products. The 
proposed legislation would authorize another DOE competition in another 
area of research--carbon capture.
    S. 2744 would authorize the Department to create a new carbon 
dioxide capture technology prize, a ``C-Prize,'' to foster novel 
technologies that separate carbon dioxide from dilute sources.
    The Department and the Administration consider carbon capture to be 
an essential tool in the mitigation of GHG emissions. A cost-effective 
technology that could significantly contribute to the mitigation of 
atmospheric carbon emissions would be consistent with the goals and 
objectives of the Administration.
    While the bill provides authorization to establish a C-Prize, it 
sets no parameters for award amounts, which would of course be subject 
to appropriations.
    The Board authorized in the bill may qualify as a Federal Advisory 
Committee, which would be subject to Federal Advisory Committee Act 
(FACA) requirements.
    Under Section 7, the bill states that the ``applicant will agree to 
vest the intellectual property of the application derived from the 
technology in 1 or more entities that are incorporated in the U.S.''. 
The S. 2744's Intellectual Property language is a significant departure 
from previous prize legislation. The Department is concerned that the 
language will deter qualified applicants from entering the competition. 
The bill additionally requires C-Prize recipient(s) to vest patents in 
an entity or entities incorporated in the U.S., and it prohibits the 
transfer of title to other than U.S. incorporated entities until 
expiration of the first patent issued. However, the bill does little to 
protect U.S. technology investment because (1) any foreign company can 
incorporate a subsidiary in the U.S. for a nominal fee; and (2) the 
language does not prevent the U.S. corporation from licensing its 
patents to foreign companies or prevent the U.S. corporation from 
manufacturing outside the U.S. Furthermore, the vesting language, 
without clarification, may discourage existing U.S. companies from 
competing, for fear that their investment may be diluted by forced 
licensing and transfer or assignment of patent rights.
Recommendations
    The Department urges the Committee to consider these concerns when 
reviewing the proposed legislation. The recommendations of the 
Committee established in the legislation should not be prescriptive, 
but rather should serve as one of several sources of information the 
Department can call upon when formulating its carbon capture technology 
R&D prize.
    Madam Chairman, this concludes my testimony. Again, I thank you for 
the opportunity to testify before this Committee, and I would be 
pleased to respond to your questions.

    Senator Cantwell. Thank you very much for your testimony.
    Senator Barrasso, did you want to make a statement now?
    Senator Barrasso. I would, but I was going to then enter 
into questioning as well. So I'd be happy to----
    Senator Cantwell. We'll start with the questions then.
    Under Secretary, on this curriculum development on 9957, 
how is it, you know, your energize program which is about 
developing curriculum. How do you explain the differences 
between this bill and that program? I know that we've also had 
some Department of Labor money that's gone out for like the 
wired grants and things of that nature for curriculum 
development.
    Ms. Johnson. Right. This particular bill calls for the 
Department of Energy to provide funding to the National Science 
Foundation for an IDGERT Grant, Inter Disciplinary Graduate 
Education Research and Training Grant. I actually, when I was a 
professor at the University of Colorado, had one of these 
grants.
    They're quite good. They're cross disciplinary in a 
particular subject. But they can be a broad subject across the 
entire science and technology field.
    RE-ENERGYSE which is REgaining our ENERGY Science and 
Engineering Edge program was inspired by President Obama's 
State address to the National Academies in April. It really is 
focused on energy technologies K through 20 plus. So it's 
looking at outreach for K through 12 to use energy to stimulate 
our young people to go into science, engineering, technology 
and math subjects.
    It provides scholarship programs for students to attend 
higher education in both community college as well as 4 year 
research universities. Internship programs for students. It 
provides opportunity then for students to go on to graduate 
work, post docs, on to become re-trained in energy, so that we 
ultimately are trying to attract our best and brightest to go 
into the energy fields and help us continue the momentum in 
building clean energy technology.
    So I would say the difference is in the one case we're 
looking at RE-ENERGYSE to look at all the energy portfolio. 
This particular bill focuses on just connecting building 
engineers and architects together to work together on one, I 
would say, more narrow field. So we support a broad education 
bill that would help us to really impact the entire energy 
portfolio.
    Senator Cantwell. Who do think should be responsible for 
the more near term issues of curriculum and development?
    Ms. Johnson. Who in terms of?
    [Laughter.]
    Senator Cantwell. I'm sorry. Agencies.
    Ms. Johnson. Agencies?
    Senator Cantwell. Department of Energy? Because this is the 
new partnering with National Science Foundation.
    Ms. Johnson. Right.
    Senator Cantwell. I don't know if you've ever done 
something like that before.
    Ms. Johnson. Yes. Right.
    Senator Cantwell. Usually joint partnerships don't always, 
from an oversight perspective, kind of, can get lost in the 
focus. But I'm just--if you're looking at this from a broad 
perspective, we see a lot of activity now where we have 
emerging technologies and emerging industries. So----
    Ms. Johnson. Right.
    Senator Cantwell. If we want to help accelerate that, then 
you can provide a lot of help for the curriculum development 
that needs to take place today. Most of these companies are so 
new and so young. They don't have time to do the curriculum 
development.
    They're just doing the hiring. But they can't find the work 
force because we haven't done the curriculum training.
    Ms. Johnson. Right.
    Senator Cantwell. So I was just curious as to how you saw 
that activity fitting into, if that's a DOE portfolio issue or 
do you think that belongs at Department of Labor? Somewhere 
else?
    Ms. Johnson. Thank you for your patience, Senator, and 
amplifying upon that question. So there are several areas where 
Department of Energy is already working with the National 
Science Foundation. We have what's called the SULI Program 
which is Summer Undergraduate Laboratory Internships which is 
also an area in re-energize.
    RE-ENERGYSE is a joint program with the National Science 
Foundation and the Department of Energy. So we use the 
laboratories, the 17 laboratories in Department of Energy, as a 
place where students the National Science Foundation has 
reached out to and helped identify can go for a summer 
internship program.
    We also have the FAST Program, which are Faculty and 
Student Teams, that is joint with the National Science 
Foundation.
    Then the National Science Foundation and our Office of 
Electricity Delivery and Transmission work together on an I/
UCRC Program which is an industry university center in power 
systems engineering.
    We have a history of programs that have worked well. I do 
see that there's a natural way to partner between NSF which 
developed a beautiful program, a beautiful set of programs in 
the education realm and funds curriculum with the deep domain 
knowledge that Department of Energy brings to the table. So I 
think that this is a natural area for us to collaborate across 
the entire energy spectrum.
    I think that in terms of curriculum development, I think 
that that's something, that as you pointed out quite rightly, 
companies don't have time to do. But universities working in 
isolation probably won't develop the kind of programs that 
industry needs. So again, it needs to be a partnership.
    I think that this is where industry and these two 
government agencies can come together to create some very 
powerful programs. So we're supportive of the legislation just 
we'd like to see it broadened a bit.
    Senator Cantwell. Thank you. On S. 2729, on the energy 
parks, I don't see the environmental research park at Hanford 
listed in there. If this were to become law would the 
Department support including one at Hanford?
    Ms. Johnson. If this were to become law we would see that 
in the future that it would be possible to examine Hanford in 
becoming part of it. I think right now we still have a bit of 
clean up to do to get it ready to be transitioned into this 
kind of facility which traditionally has supported ecology work 
and environmental work with USGS and Department of Ag and 
Department of Defense as well as the Department of Energy. So I 
think further down the road when it's ready and fully cleaned 
up to transition I would----
    Senator Cantwell. You don't think there's enough land there 
that it's able to transitioned now?
    [Laughter.]
    Ms. Johnson. There certainly is a lot of land as I noticed 
on my visit. I'm just not sure how much of that land would be 
ready and fully cleaned up and be able to be qualified to be--
--
    Senator Cantwell. I think the things that we're talking 
about now are, you know, very far from the cleanup sites and 
quite massive. So anyway, we'll get back to you on that issue.
    Ms. Johnson. Ok, thank you.
    Senator Cantwell. Senator Stabenow, did you have?
    Senator Stabenow. Yes, I did. Thank you very much.
    Senator Cantwell. We're going in order of attendance.
    Senator Stabenow. Thank you. I do have to leave in a moment 
to go to the floor. So I appreciate this very much.
    Specifically, according to the National Academy of Sciences 
and DOE, the amount of fuel consumed annually by heavy duty 
trucks and buses has more than doubled over the past 35 years.
    Ms. Johnson. Right.
    Senator Stabenow. It now counts for 21 percent of the total 
surface transportation fuel that's used in the United States. 
However, it's very questionable that we have had a proportional 
level investment in advancing medium and heavy duty 
technologies. That's really the reason that I've introduced 
this bill and my colleague in the House of Representatives.
    It's a comprehensive vehicle R and D bill considering the 
full spectrum of transportation needs. You've made heroic 
efforts through the DOE on section 136 which I was pleased to 
author in the Energy Act a few years ago and battery grants. 
But we have a long way to go as it relates to focusing on new 
technologies for medium and heavy duty sectors.
    So my question is this. To what extent is the DOE working 
to transfer new innovations in passenger vehicle R and D that 
contribute to the reduction in oil use such as plug in hybrid, 
electric vehicle technology into the medium and heavy duty 
sector?
    Second given the fact that given the decline in heavy truck 
funding from 86.6 million in the 2002 Federal budget to the 
requested amount of 25.2 million for this year, 2009, within 
what framework does the Department expect advancements in the 
medium/heavy duty sector to come on par with passenger 
vehicles? Wondering if your efforts have been constrained by 
fluctuations in appropriations? I'm assuming that's a yes.
    [Laughter.]
    Senator Stabenow. Would you see the advanced vehicle 
technology bill helping you be able to bring that more on par?
    Ms. Johnson. Right. First of all let me say we really 
appreciate the support that Congress has shown and continue to 
show for the advanced vehicles. This work has greatly 
contributed to both the light duty as well as the heavy duty 
fleet.
    One of the exciting things that I've been able to 
participate in is reviewing the heavy duty and being--not 
reviewing, but at least being able to observe the American 
Recovery and Reinvestment Act funding of about $230 million and 
$80 million has been for Super Truck. I think they'll be some 
exciting things that will be coming out of that particular 
program.
    I think that although our funding hasn't been at the same 
level in the heavy truck as the light duty truck area, there 
are things that we investigate in both areas that are helpful 
and overlap, light weighting, fuel efficiency. We look forward 
to working with you on your bill in order to see more of the 
research go further in demonstration and deployment 
opportunities in this area.
    Senator Stabenow. I look forward to working with you as 
well. I do think given how much we're talking about in terms of 
the volume of transportation fuel and where it's used in the 
economy that we really need to make this a priority going 
forward. So I look forward to working with you.
    Thank you.
    Ms. Johnson. Thank you, Senator.
    Senator Cantwell. Thank you.
    Senator Barrasso.
    Senator Barrasso. Thank you very much, Madame Chairman. 
Welcome, Dr. Johnson. It's great to see you again.
    I also want to thank the chairman of the full committee, 
Senator Bingaman, who has been partnering with me on the 
introduction on the piece of legislation that you'd referred 
to, the Carbon Dioxide Capture Technology Act of 2009.
    Ms. Johnson. Right.
    Senator Barrasso. This is a bill that he and I have jointly 
introduced in the last month. I had introduced a similar bill 
in the last session of Congress. But working with Senator 
Bingaman in his leadership and knowledge, I think we have a 
much improved bill. I'm very grateful to have him as a co-
sponsor of this.
    You know, some in this body and when you and I talked 
before your confirmation, some in this body have discussed 
various proposals to regulate the output of carbon dioxide 
through a cap and trade approach. Others have advocated a 
carbon tax. Those are two ends of the same problem in 
addressing greenhouse gas emissions.
    But overlooked is the excess carbon dioxide already in the 
atmosphere. This is the carbon dioxide that we're concerned 
about and that the bill specifically addressed. The best 
science tells us that excess carbon dioxide in the atmosphere 
is a contributing factor in the issue of global climate change 
and to what extent there is considerable debate.
    It would seem to me a worthy approach to find a way to 
remove excess existing carbon dioxide from the atmosphere and 
then permanently sequester it. That's the other end of the 
problem. Some people refer to it as air capture.
    I've a letter from Klaus Leisinger, who is the Ewing-Worzel 
professor of Geophysics at Columbia University, the Chair of 
the Department of Earth and Environmental Engineering, calls it 
dilute capture of carbon dioxide. Professor Leisinger believes 
this is a particular long term importance in terms of this 
global issue. So to accomplish this we're certainly going to 
need to invest the money to develop the technology. How do we 
best do that?
    So the approach that Senator Bingaman and I have in this 
piece of legislation takes this through a series of financial 
prizes where we, through your Department, set technological 
goals and outcomes. Then the first to meet these, the criteria, 
would receive Federal funds and also international acclaim. I 
think that prizes are a unique tool in creating technological 
development.
    The government already offers prizes. Department of 
Energy's prize, the L Prize, there's also NASA's Centennial 
Challenge Program. The economist recently reported on NASA's 
competition to create a new lunar lander for future moon 
exploration. The article says that NASA's system of prizes and 
then I'll quote, ``spurs technological development using the 
twin lures,'' it says, ``of hard cash and the kudos of being 
officially recognized as cleverer than your peers.''
    [Laughter.]
    Senator Barrasso. Scientists love to be recognized that 
way. I think that's kind of more than the money, is the 
recognition. So I think that the prizes are/can be a unique 
tool for fostering technological advances.
    So Madame Chairman, what I'd like to do, if I could is 
submit as a part of the record this letter* from the Professor 
from Columbia University talking about dilute capture of 
carbon, who goes on to say that this can be done anywhere at 
any time. It's particularly well suited to start small in niche 
markets and would be very good for prize forum.
---------------------------------------------------------------------------
    * See Appendix II.
---------------------------------------------------------------------------
    Senator Cantwell. Without objection.
    Senator Barrasso. Thank you very much, Madame Chairman.
    So what I heard, Dr. Johnson, from you is that you support 
this effort but had some legitimate concerns. We are looking, 
Senator Bingaman and I, are looking at improving this bill 
because we want to see this succeed.
    Ms. Johnson. Right.
    Senator Barrasso. We want this technology developed. I 
think you said you had some concerns about intellectual 
property issues?
    Ms. Johnson. Right.
    Senator Barrasso. In your written testimony some issues 
about the latitude that the Department might need. I just 
wonder if you had some thoughts on that. If you'd be willing, 
you and your Department, to work with Senator Bingaman and with 
me in finding ways to improve the bill and then getting this 
passed and getting those scientists motivated.
    Ms. Johnson. Right. Certainly we would love to work with 
you and Senator Bingaman too, on this bill. We think that 
greenhouse gas emissions are a big problem facing the planet. 
All the tools that we can employ in order to move forward on 
this problem are welcome.
    The only, I would say, issue with regard to intellectual 
property is that the individuals that would be eligible for the 
prize from my reading of the bill would be companies that were 
incorporated in the U.S. or would vest those patents in the 
U.S. The only concern we have is perhaps that would deter some 
applicants from applying and helping solve the problem. That 
was all the concerns.
    So sure we absolutely look forward to working with you, 
Senator, on this bill.
    Senator Barrasso. Good. As you know we really didn't even 
set dollar figures on the prize because we felt that----
    Ms. Johnson. Right.
    Senator Barrasso [continuing]. Would be best done by a 
committee that came together through the Department under the 
leadership there to say what kind of motivating factors do we 
need?
    Ms. Johnson. That would be great. Look forward to it.
    Senator Barrasso. Thank you. Thank you, Dr. Johnson.
    Ms. Johnson. Thank you.
    Senator Barrasso. Thank you very much, Madame Chairman.
    Senator Cantwell. Thank you, Senator Barrasso.
    Under Secretary Johnson, I'd like to go back to a couple of 
these bills just to get your input on further discussion.
    Ms. Johnson. Sure.
    Senator Cantwell. One is S. 2773, the Offshore Wind Energy 
Research Development and Demonstration. Obviously a lot of the 
things on the docket today are in the research realm.
    Ms. Johnson. Right.
    Senator Cantwell. Continuing on renewables. It's my 
understanding that there is an agreement between FERC and the 
Mineral Management Service on who administers the citing of 
offshore facilities. So is the Department working with those 
agencies as you look at demonstration projects for offshore?
    Ms. Johnson. Right. First of all, again, we look forward to 
working with the committee in this very important area. It 
turns out that the potential of our offshore wind are thousands 
of gigawatts which is very significant compared to the overall 
electrical usage in this country.
    So it's a tremendous resource. We look forward to working 
with the committee on both these bills. They both look at 
robust R and D in the area.
    S. 2773 is a bill that addresses the deep offshore wind 
opportunity. We feel it would be duplicative with work that 
we're already funding through the American Recovery and 
Reinvestment Act, $8 million for a deep offshore wind center. 
So we look forward to working with the committee to incorporate 
more inclusive language that wouldn't restrict it just to 
certain areas, but able to attack our entire wind resource, 
which as I said before, is extensive and would include the 
Great Lakes, for example.
    Also to include shallow and transitional waters and focus 
on not only the cost of the turbine, which is about a third of 
the cost of these wind farms, but also focus on the 
reliability. How do we get the energy from, you know, deep 
offshore or shallow shore, onshore, project maintenance and 
installation and staging?
    So we are quite interested to work with the committee on 
these bills.
    Senator Cantwell. What about the engineering center in 
general? Do you support that concept?
    Ms. Johnson. We are supporting, as you know, the 
engineering centers through our hubs, our energy innovation 
hubs. We are supportive of centers, definitely, as a way to 
bring together industry, university partners and researchers in 
the labs in order to solve these very difficult problems. So we 
are supportive of engineering centers.
    Senator Cantwell. On S. 737 on the biofuels for small 
engines.
    Ms. Johnson. Right.
    Senator Cantwell. What are you--do you think that adding 
these additional items will help us? I know the Department is 
doing a lot of research on various engine types which we 
support.
    Ms. Johnson. Right.
    Senator Cantwell. We're very proud that we've had a lot of 
both Maritime applications in the Pacific Northwest.
    Ms. Johnson. Yes.
    Senator Cantwell. Research done on biofuels used in our 
very fleet that has more people traveling on it annually than 
Amtrak. We've had demonstration projects on Boeing planes as 
well in biofuels. So we want to keep seeing the research and 
development take place.
    Do you think that this adding small, non-road engines will 
help or?
    Ms. Johnson. Right. First of all I would like to say thank 
you very much to the committee and to Congress for supporting 
$800 million in biomass for biofuels applications, for example 
in the American Recovery and Reinvestment Act. We announced 
last Friday the integrated bio-refineries, part of that which 
was nearly $500 million. So thank you so much for that 
opportunity to work in this arena.
    Currently we are funding research that covers non-road 
engines including snowmobiles, motorcycles, chain saws. We know 
that there has to be more work done on hand held devices, 2 
stroke engines that right now are not very comfortable with 
ethanol. So we have more work to do.
    We have no concerns with the bill. It would be certainly 
within the portfolio of R and D that we're currently carrying 
out.
    Senator Cantwell. I know my colleagues, Senators Collins 
and Udall, that is a very big concern of theirs, particularly 
the seizing that can occur and the injury to individuals with 
these chain saws. So we certainly hope that we can look at 
those applications and get support for that kind of analysis 
and help.
    On the Solar Technology Roadmap, you mentioned you were 
more interested in some non-binding targets on that.
    Ms. Johnson. Right.
    Senator Cantwell. Could you?
    Ms. Johnson. Right.
    Senator Cantwell. Could you discuss how you think that?
    Ms. Johnson. Sure.
    Senator Cantwell. Obviously we could proceed in achieving 
some of the goals. If you didn't have the targeted--if you 
didn't have the targets be binding?
    Ms. Johnson. Yes, absolutely. The bill as written covers a 
lot of the areas that we feel are quite important to the whole 
solar technologies program. We're quite excited about the level 
of funding and the opportunity to work on trying to realize 
bringing 10 percent or more of our generation from solar by 
2030.
    It is just the part where 75 percent of the funding would 
be under the guidance and direction of a semiautonomous, non-
government group that would have binding authority. We believe 
that the Secretary and his staff are in a great position and 
should have the authority to manage the solar energy portfolio. 
So we'd definitely like to work with the committee on the 
language on this particular bill.
    We're excited about what it covers. It's just that 
particular binding requirement. If it was non-binding and more 
of an advisory in guidance that we do quite a lot with our FACA 
committees, that would be our preference.
    Senator Cantwell. What about the model that is used for 
semiconductor industry? Is that appropriate as outlined in the 
bill?
    Ms. Johnson. It calls for a solar energy road map. We're 
currently working on one called the Solar Powered Visions. It 
is involving industry as well as our DOE laboratories.
    So we believe it is a good idea to have a road map. Know 
where you're going and what needs to come next. We look forward 
to continuing our work with your support in this endeavor.
    Senator Cantwell. Ok. I see my colleague from Oregon is 
here. Senator Wyden, did you have questions for the Under 
Secretary?
    Senator Wyden. I do, Madame Chair. Thank you for all the 
good work you're doing. You are our champ on this whole cause. 
It is great to have a chance to do some work with you on it.
    Madame Secretary, let me give you my sense about where we 
are on this. I believe that America is missing the boat on the 
energy storage issue. I mean, if you look around the country, 
this Nation is building gas plants, for example, because we 
aren't fully capturing the potential for storing renewable 
energy sources.
    Ms. Johnson. Right.
    Senator Wyden. That makes no sense even by the bizarre ways 
of the beltway. It's got to be changed. Do you disagree with 
that point I've just made?
    [Laughter.]
    Ms. Johnson. I agree that storage is crucial if we're going 
to bring on the amount of clean energy renewables, particularly 
wind and solar. So the Department of Energy has a study that 
we've produced which is 20 percent wind by 2030. We've also 
looking at our solar energy road map we're just trying to get 
to 10 to 20 percent by 2030.
    So we know that level of intermittency which could be 40 
percent of our electrical generation cannot be brought onto the 
grid in its current function. That's why we're very pleased and 
grateful for the funding through the American Recovery and 
Reinvestment Act which allows us to do the smart grid 
investment grants to try and look at storage and to carry out 
demonstrations where we can provide storage as well as a more 
upgraded grid.
    Senator Wyden. But on the basic point, I want to make sure 
because we're going to have a couple of hearings in here.
    Ms. Johnson. Right.
    Senator Wyden. This is a question of kind of delivering a 
wakeup call.
    Ms. Johnson. Right.
    Senator Wyden. Isn't it fair to say that this country is 
missing the boat on energy storage. Literally I'm looking at 
press releases from California where they're talking about, you 
know, various kinds of,you know, gas generating projects.
    Ms. Johnson. Right. Yes.
    Senator Wyden. That they're having to put in place because 
there has not been the capacity to store it. Isn't that 
correct?
    Ms. Johnson. Yes. Senator Wyden, you're correct in that. In 
order for us to bring on the intermittent renewable energy we 
need base load energy. Right now that's mainly gas.
    Now we can look at battery storage. We can look at pumped 
water storage. We can look at compressed air storage.
    But in order to bring on this level of intermittency we 
will have to have a way to manage that load. Storage is one of 
the ways that we are investigating through our various 
programs.
    Senator Wyden. Let's look at the two areas that come to 
mind. This afternoon Senator Stabenow has a very fine bill that 
I'm a co-sponsor of, obviously dealing with advanced, you know, 
vehicle batteries. There's been very significant potential in 
terms of hybrid vehicle technology.
    Ms. Johnson. Right.
    Senator Wyden. A company in Oregon, for example, is even 
producing a plug in motorcycle.
    [Laughter.]
    Senator Wyden. That can go over 40 miles on a battery 
charge without using any gasoline. Now I have sent a letter 
recently to Secretary Chu urging that he expand the 
Department's program to include vehicles like these motorcycle 
efforts. We've got a company in Oregon, Brammo, that has been 
involved in this.
    What role do you see for energy storage for vehicles, 
especially for vehicles other than automobiles?
    Ms. Johnson. One of the programs that we're funding through 
the American Recovery and Reinvestment Act in the smart grid 
investment grants is looking at small fleets that are electric 
vehicles and plug in hybrid electric vehicles where you store 
them, charge them up at night and then run them during the day 
as a fleet from a corporate entity, then come back and recharge 
them. From this investigation, probably the most important 
thing that we'll get out of this is the data about how we 
control and utilize the demand of--the interaction I should 
say, an integrated system of the storage in batteries of a 
fleet of say, up to 1,000 vehicles, then how that would play 
with the less demand at night from the generation and storage.
    I think that what we will learn is how do we actually 
manage these kinds of integrated systems. We'll learn more than 
about what kind of storage we need in order to scale that in 
the different interconnection regions in the country.
    Senator Wyden. Now as far as I can tell, the staff says 
much of the rest of the world gets around on small two and 
three wheel vehicles. I'm trying to get a sense from you. Is 
the DOE working at all on plug in systems for vehicles like 
motorcycles?
    Ms. Johnson. I'm not sure. But I'd be glad to get back to 
you for the record.
    [The information follows:]

    The Department is working on the development of advanced battery 
technology, primarily for automotive application in hybrid and electric 
drive vehicles. However, the same technology is very applicable to 
other types of electric drive vehicles, including electric motorcycles, 
motorbikes, and scooters. More specifically, the Department 
participates in an international collaboration on battery-powered 
electric two-wheelers, under the auspices of the International Energy 
Agency (IEA Hybrid and Electric Vehicle Implementing Agreement, Annex 
XI, Electric Cycles). Research is directed at battery application 
requirements for various market segments and public charging 
infrastructure needs for battery powered two-wheelers.

    Senator Wyden. Because that's what I'm talking about when I 
say and you're going to hear me say this a lot.
    Ms. Johnson. Right.
    Senator Wyden. As it relates to these upcoming hearings. I 
think we are lagging significantly in this energy storage area.
    Ms. Johnson. Right.
    Senator Wyden. I think when you're looking at what's going 
on around the world both in terms of, you know, products and 
research we just got to get serious about this and quickly. Let 
me ask you then about the other storage question that I care a 
great deal about and that's grid connected storage to support 
renewables. Here utility storage systems can help generate the 
same kind of fossil energy savings by storing the renewables 
intermittently.
    I've got a bipartisan piece of legislation which has now 
been introduced on both sides. It's technology neutral. It 
creates investment tax credits to use energy storage 
technologies that are directly connected to the grid and also 
incentives for businesses and homeowners can install their own 
energy storage units.
    Now, the committee is also going to be holding a hearing on 
grid connected systems on Thursday. But you won't be able to, 
you know, be here for that. So my question to you on this is I 
wrote the Department last summer suggesting that the agency 
look more at how storage systems could complement the 
deployment of renewable technologies.
    We didn't get a response to that letter either. My question 
here is what role do you see for energy storage systems to 
support renewable energy development and what can you tell us 
you're going to initiate in this area?
    Ms. Johnson. If I could go back to your question before 
just for a minute in terms of the motorcycles and, you know, 
hybrid plug ins and 2 wheel. I would say that nothing that 
we're supporting would preclude obviously using those 
particular vehicles. I think that one of the things that we've 
realized from some of our studies is that well, first of all we 
know that of the 19.5 million barrels of oil that we consume a 
day that 70 percent of that is going into transportation.
    We know that 57 percent of that is imported. So we 
appreciate this is a crucial problem, not only for greenhouse 
gas emissions, but also for our energy security. So one of the 
things that we're quite excited about and working in the 
Department on, is improving the efficiency of our internal 
combustion engine. The same time building their capability and 
compatibility with biofuels. At the same time providing this in 
a plug in hybrid electric vehicle whether that's a two wheel or 
three wheel or four wheel.
    So that involves bringing an integrated system together 
that understands storage, understands biofuels and makes our 
internal combustion engine run as efficiently as possible. So 
our studies have shown that a plug in hybrid electric vehicle 
of any kind that would have a 40 mile electric range working 
with an E85 cellulosic ethanol, for example, would reduce our 
consumption by 85 percent. So some of the things that we're 
currently doing that are speaking to that and getting out into 
commercialization is that we're looking at light weighting.
    So for about every 10 percent you save in light weighting a 
vehicle, which of course a two wheeler is pretty light weight 
to begin with, you can save up to six to 8 percent in terms of 
fuel efficiency. That takes you to about 30 percent of the 
light weighting. So we're heavily involved in light weighting.
    We've also been heavily involved in some of our battery 
technology, in particular the U.S. hybrid vehicles in this 
country, their nickel metal hydride battery was developed in 
technology from DOE. So we've been heavily involved in hybrid 
battery development and storage, been heavily involved in light 
weighting, heavily involved in biofuels. So our approach has 
really been a systems integration approach.
    Now the next step is to integrate it onto the grid. Then to 
look at how the storage interplays with the grid and how you 
dispatch and flow the electrons to where they are needed and at 
times during the day where the load is lighter. So I can say 
that, if anything to take away, would be we're looking at it as 
an integrated approach. We're definitely looking at storage and 
this is actually a very interesting question that you raise 
because distributed energy and distributed energy storage 
verses very centralized energy production and storage.
    So where does it make sense to have pumped hydro as a dam 
somewhere that has the capability of storing quite a lot of 
power? Then where does it make sense to have a more distributed 
system which you might have with the fleet of 1,000 vehicles 
that have a smaller battery? This is actually a problem that 
we're investigating right now. It's not clear where or how you 
parse that distribution.
    So appreciate your insight on that. We'll look forward to 
coming back and chatting with you about this as we learn more 
from these experiments that have been funding through the 
Recovery Act.
    Senator Wyden. The reason that I'm asking these questions 
is when you, as somebody who is very knowledgeable and I'm glad 
you have the position you do. You tell me that there's nothing 
that precludes using these two and three wheel vehicles. I'm 
saying to myself, as a United States Senator, we've got these 
companies, you know, making them.
    I'm looking around the world and seeing these two and three 
wheeled vehicles out there. I'm saying I want a different 
answer than my government saying we won't preclude it. I want 
to hear my government say, this is what we're doing to go 
gangbusters into a very exciting kind of field. Let's go to the 
question of the grid connected systems. So I just have you on 
the record on that.
    So we've got a piece of legislation, 1091, bipartisan, both 
House and Senate, to create these incentive tax credits for 
energy storage. That it's directly connected to the grid. It's 
also incentives for business and homeowners to install their 
own storage units.
    I'm asking you, of course, because we're not going to be 
able to have you on Thursday. This, of course, is the Energy 
Committee. I'll be working with Senator Cantwell because we 
also serve on the Finance Committee.
    What's your general assessment of the value of that kind of 
legislation?
    Ms. Johnson. I'm not familiar with that particular bill 
right now. So I'd be glad to provide, for the record, an answer 
to that.
    [The information follows:]

    Enhancing our national energy storage capability is an important 
tool to improve electric grid reliability and resiliency. Storage 
technologies can reduce power fluctuations, enhance system flexibility, 
and enable greater integration of variable generation renewable energy 
resources such as wind and solar power. The core function of energy 
storage is to bridge the gap that exists between the characteristics of 
the generation andoad technologies within our electrical system. While 
this includes integration of variable generation renewable energy 
technologies such as wind and solar, there exist today gaps and 
mismatches throughout the grid that stress our infrastructure and would 
benefit from the system flexibility that could be introduced via the 
deployment of energy storage technologies.
    While there are technological and other barriers to widespread 
deployment of energy storage systems, one important barrier is 
economics. Current costs are high and can discourage investment. S. 
1091 will provide a 20 percent tax rebate for a wide variety of grid-
related energy storage applications as well as community and on-site 
storage.
    The Department believes the incentives provided by the bill will 
have a significant impact on the deployment of storage on the grid. The 
bill covers a wide-range of energy storage technologies and 
applications. It will provide incentives for utilities and developers 
to employ energy storage to better accommodate ample night time wind 
energy, mitigate ramping, and reduce daytime peaks. The Department 
notes that technical comments it provided on previous versions of this 
bill have been addressed in the current version.
    The Department offers the following technical comments for 
clarification: clarify the types of vehicle:

  <bullet> SEC. 4. ENERGY INVESTMENT CREDIT FOR ONSITE ENERGY STORAGE. 
        (b)(6)(A)

          (6) QUALIFIED ONSITE ENERGY STORAGE PROPERTY--

          A) IN GENERAL--The term `qualified onsite energy storage 
        property' means property which----

                  i) provides supplemental energy to reduce peak energy 
                requirements primarily on the same site where the 
                storage is located, or
                  ii) is designed and used primarily to receive and 
                store intermittent renewable energy generated onsite 
                and to deliver such energy primarily for onsite 
                consumption.

          Such term may include property used to charge:

                  i) plug-in electric and plug-in hybrid electric 
                vehicles using internal combustion or fuel cell 
                systems,
                  ii) material handling equipment such as forklifts 
                using electricity if such vehicles are equipped with 
                smart grid services which control time-of-day charging 
                and discharging of such vehicles. Such term shall not 
                include any property for which any other credit is 
                allowed under this chapter.

    The intent of this language is to clarify that a qualifying 
property supports vehicles that plug in to the electric grid, whether 
they are purely electric or hybrid, and regardless of the type of 
hybrid technology. This would include plug-in hybrids based on fuel 
cell or hydrogen technologies as well. The changes would also enable 
properties that support equipment such as forklifts that use 
electricity to qualify for investment credit.

    Ms. Johnson. But can I come back to the question you asked 
about the 2 and 3 wheeler?
    Senator Wyden. Yes, sure. Of course.
    Ms. Johnson. Just because there are a number of mechanisms 
that have worked very well that the Department of Energy has, 
including the 48C tax credit, which I'm a big proponent of, 
manufacturing for the opportunity to deploy these systems and 
devices overseas to the market as well. So the 2 wheeler and 
three wheeler electric vehicles that you were talking about, I 
mean, those companies should apply for some of these 
manufacturing tax credits in order to scale up. Be able to not 
only serve the markets that are in this country, but overseas.
    So we actually are quite enthusiastic about working with 
companies like the ones that you have described. We have many 
mechanisms from the 1703 to 1705 to 1603 loan guarantee 
programs and tax credits in the 48C. So I think that we, 
depending on the size of the company, we also launched this 
fall a new part of the SBIR solicitations.
    We put 50 percent of the emphasis on commercialization job 
generation in the clean energy areas. We just announced last 
week or the week before the $18 million in the first, phase 
ones of those. So we, not only would it not preclude, but those 
are exactly the companies that we're hoping are going to come 
forward and take advantage of these particular instruments that 
we have to help manufacturing in this country.
    Senator Wyden. Let's do this. I hope that we'll get a 
favorable response to the letter I sent Secretary Chu with 
respect to the vehicles, the Brammo motorcycle that we hadn't 
gotten a response to that.
    Ms. Johnson. Right.
    Senator Wyden. On the second piece of legislation you have 
Senator Shaheen, Senator Dorgan, Senator Menendez, Senator 
Collins, Senator Kerry. You have a number of Senators, both the 
Energy Committee and the Finance, you know, committee, 2 
committees that are working in the storage area. How long would 
it take for you to get a written response to my questions about 
that legislation?
    Could we have that within 2 weeks?
    Ms. Johnson. Oh, yes. Absolutely.
    Senator Wyden. Great. Look forward to working with you. 
Thank you, Madame Chair.
    Senator Cantwell. Thank you. Thank you, Senator Wyden. I 
think your point about these 2 and 3 wheel vehicles and the 
opportunity.
    You know, we see so many cargo ships coming into Puget 
Sound carrying vehicles from China and other goods and 
services. It would great to know that the 1.32 billion people 
there in China, who are always saying that we're ahead on the 
technology, R and D end of the equation, if we were solving 
some of these problems and helping with that market. I don't 
think that China is looking at 1.32 billion people driving 
cars.
    Ms. Johnson. Right.
    Senator Cantwell. I think they're looking at the 
opportunity for transportation on these two and three wheel 
vehicles as a real opportunity in their country. So I hope we 
can make progress on this. So we appreciate your interest.
    I have one last question, if I could Under Secretary 
Johnson, about the Impact Act of 2009, S. 1617. You know that 
we've passed a loan program for manufacturers out of this 
committee before.
    Ms. Johnson. Right.
    Senator Cantwell. Focused on energy projects. This 
particular bill deals with this, I mean it's directed at the 
Secretary of Commerce to establish revolving loan funds. So how 
would the Department of Energy and Commerce work together on 
this? Who do you think is best suited to administer such a 
revolving loan fund?
    Ms. Johnson. Thank you, first, for introducing this bill on 
clean energy manufacturing or revolving loan program. Let me 
just take a minute to note the Department is already working to 
carry out the goals of the bill. Through our loan guarantee 
program which administers our 1703 and 1705 and ATVM loans, as 
I mentioned earlier to in response to Senator Wyden, we also 
have the 48C and 1603 tax grant subsidies for manufacturing 
components and production of renewable energy.
    We've worked together with the Department of Commerce well 
in the past. We continue to do that in the future. We would 
relish the opportunity to do that through this particular bill.
    I think that in our area we've been working hard in the 
areas to define energy efficiency products. We would hope that 
the Department would take the lead in that particular area and 
to using our deep domain knowledge and background and leverage 
off of these successful programs to continue to work with our 
colleagues at Department of Commerce in such a legislation that 
might come forward.
    Senator Cantwell. So do think ideally there's 2 separate 
programs or do you think there's one program with consultation?
    Ms. Johnson. I think one program with consultation would 
work very well.
    Senator Cantwell. Ok. Then the targets on some of these 
areas? Are they going to be streamlined? I mean, obviously part 
of the challenge is in the SBA models are better models because 
they get capital out to the market faster.
    Ms. Johnson. We have been working very hard in the last 6 
to 9 months to get capital out. We've made 4 loans for a 
billion dollars with Solyndra and Red River and Nordic and 
others for clean energy, you know, production companies. So we 
see that we have a big investment in our loan guarantee office.
    It's working well. We look forward to the opportunity to 
continue those opportunities and deals that we've been doing.
    Senator Cantwell. Great. Again, thank you very much. We 
will keep the record open for another 2 weeks on these bills.
    Ms. Johnson. Ok.
    Senator Cantwell. So people, committee members, have 
questions to submit to you, we appreciate you getting back to 
us in answers.
    Senator Cantwell. Again, thank you for your dedication to 
this particular area and your great background steeped in this.
    So we look forward to moving forward on many pieces of this 
legislation. So the hearing is adjourned. Thank you.
    [Whereupon, at 3:31 p.m. the hearing was adjourned.]
                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

  Responses of Kristina M. Johnson to Questions From Senator Murkowski
                  h.r. 957--green energy education act
    Question 1. S. 1462, the American Clean Energy Leadership Act, 
which this Committee sent to the full Senate in June, contains a broad 
energy workforce development section which, along with programs to 
address future energy workforce shortages, specifically includes 
training for energy efficient construction, retrofitting, and design. 
In your view, would H.R. 957 complement this legislation or be 
duplicative?
    Answer. Both S. 1462, the American Clean Energy Leadership Act 
(ACELA), and H.R. 957, the Green Energy Education Act, contain 
provisions that would help our workforce develop the skills needed to 
address future opportunities in energy efficient construction and 
design. H.R. 957 appears to support the creation of energy efficient 
construction through curricular development and post graduate 
fellowships that would require partnerships between engineering and 
architecture schools. ACELA Subtitle D, Section 450 most closely 
resembles the program proposed in H.R. 957. This Section proposes 
programs that would be developed by the Secretary of Energy in 
coordination with the Secretary of Labor to award grants to community 
colleges to provide training and education in industries and practices 
in energy efficient construction, retrofitting and design.
    Work force development programs at many levels can help build a 
skilled energy and energy efficient building workforce. Community 
colleges can help train workers to deploy new technologies quickly and 
post graduate institutions can contribute research to building 
technology, science, and engineering. The two bills appear to address 
these needs in different ways. They target different sectors of the 
educational market (community colleges and post graduates) and 
different time scales (immediate delivery of training, longer-term 
development of graduate-level curriculum and post doctoral research).
    While the Department appreciates H.R. 957's and ACELA's focus on 
building technologies, we would like to emphasize growing opportunities 
for skilled workers across the clean energy sector. The rapid 
deployment of new energy technologies, coupled with the fact that 40 to 
60 percent of energy utilities' skilled workers and engineers are 
eligible to retire by 2012\1\ suggests the benefits of a broad approach 
to address the green job development and training challenge.
---------------------------------------------------------------------------
    \1\ Center for Energy Workforce Demand 2007 Report: Gaps in Energy 
Workforce Pipeline.
---------------------------------------------------------------------------
    To this end, the Department works closely with the National Science 
Foundation (NSF) on currently funded and proposed activities to 
strengthen scientific educational programs at the technical, 
undergraduate, and graduate levels. These projects are aimed at 
creating a pipeline beginning at the K-12 level and extending through 
the post-graduate level to ensure the ongoing development of a 
workforce with the skills and capabilities to create and scale-up 
innovative energy technologies and improve processes over the long-
term.
            h.r. 2729--national environmental research parks
    Question 1. The legislation directs each Research Park to support a 
wide degree of research and monitoring work. How does the research and 
monitoring provided for in the bill match up with Department of Energy 
priorities?
    Answer. Generally, H.R. 2729 authorizes the Department of Energy 
(DOE) to support research in eight areas at the research parks:

          a. Ecology of the site and the region;
          b. Population biology and ecology;
          c. Radioecology;
          d. Effects of climate variability and change on ecosystems;
          e. Ecosystem science;
          f. Pollution fate and transport research;
          g. Surface and groundwater modeling; and
          h. Environmental impacts of development and use of energy 
        generation technology, including renewable energy technologies.

    Several of these research areas are consistent with DOE research 
priorities and are areas of research that the Department supports. In 
general, research activities are conducted at locations that are 
optimal for the proposed studies and are not limited to, or selected 
for, use of research park lands. Research in effects of climate 
variability and change on ecosystems and ecosystem science is supported 
by the Office of Science's Office of Biological and Environmental 
Research (BER). Specifically, research is targeted at understanding the 
role of terrestrial ecosystems in the global carbon cycle, 
understanding the effects of changing concentrations of greenhouse 
gases on terrestrial ecosystems, and understanding the role of 
terrestrial ecosystems in terrestrial carbon sequestration. BER also 
supports research consistent with pollution fate and transport research 
on the transport and fate of contaminants, specifically radionuclides 
and heavy metals in the subsurface. This research on the behavior and 
interactions of contaminants, in subsurface environments provides 
knowledge needed by DOE's Offices of Environmental Management (EM) and 
Legacy Management (LM) to develop new strategies for the remediation 
and stewardship of weapons-related contaminants at DOE sites. Research 
in surface and groundwater modeling is also supported by BER, EM, and 
the National Nuclear Security Administration (NNSA) as it relates to 
the fate and transport of subsurface contaminants (including geological 
carbon sequestration) and long-term environmental stewardship of DOE 
sites. It should be emphasized again, however, that the above research 
is conducted at locations that are consistent with the specific 
hypotheses being tested and not at ``research parks,'' per se.
    The DOE Office of Energy Efficiency and Renewable Energy supports 
research in environmental impacts of development and use of energy 
generation technology, including renewable energy technologies as it 
relates to the development and deployment of new energy technologies. 
EM and the Office of Science have supported research in radioecology in 
the past, particularly at the Savannah River Ecology Laboratory in 
recent years, however, the Department's priority has shifted to 
subsurface contaminant fate and transport to more directly address the 
Department's legacy waste and clean-up responsibilities.
    The bill's proposed research areas in ecology of the site and the 
region and population biology and ecology are not well aligned with the 
Department's mission priorities and are better supported by other 
Federal agencies.
    Question 2. How does the authorization of $5 million/year for each 
Research Park impact the Office of Science's overall budget?
    Answer. The authorization of $5 million/year for each of six 
National Environmental Research Parks (NERPs) would total $30 million/
year, if appropriated. The Office of Biological and Environmental 
Research would be the likely group to manage this NERP program as it 
currently supports research in atmospheric and terrestrial systems, as 
well as climate modeling. But finding would have to be appropriated, 
not only the $30 million specifically authorized for the six NERPS, but 
also additional funds to support the solicitation, review and 
management of six large, new research activities which would be a major 
new effort within the relatively small Office of Biological and 
Environmental Research. Moreover, in addition to its potential budget 
impact, the proposed new program would be counter to the Office of 
Science's best practices for management of research programs and 
optimal use of scientific resources by the broader scientific 
community. The Office of Science currently supports high priority 
research as identified by expert advisory panels and selected through 
external peer review. Under this legislation, the site rather than the 
quality or overall importance of the research would command the 
funding.
    Question 3. How would making the Research Parks permanent impact 
the Department's ability to utilize federal land in the most 
appropriate manner to meet its mission? What are the potential impacts 
on future land transfer to the local communities?
    Answer. The Section 3 savings clause of H.R. 2729 does specify that 
the bill shall not be ``construed to limit the activities that the 
Federal Government may carry out or authorize on a site on which a 
National Environmental Research Park is located.'' The Department is 
concerned, however, that once research park lands were officially 
designated as ``protected outdoor research reserves,'' public 
opposition to any development within the parks, even for DOE mission 
related purposes, would increase significantly. Additionally, the 
savings clause does not address the issue of future land transfers to 
local communities. The Department is concerned that any official 
designation of a ``research park'' could prohibit the transfer of any 
parcels within that boundary to local communities for productive 
economic use.
        h.r. 3165--the wind research and development act of 2009
    Question 1. To date, how much has the federal government spent on 
wind research and development?
    Answer. From 1978 to 2008, the Department of Energy has been 
appropriated over $1.6 billion (in 2008 dollars) to invest in wind 
energy research and development (R&D), as compared with nearly $24 
billion for Nuclear Energy R&D and Infrastructure, $41 billion for 
Fossil Energy R&D, and over $15 billion for Fusion Energy over that 
time period. In Fiscal Year 2009, $55 million was appropriated for wind 
R&D. In Fiscal Year 2010, $80 million is appropriated for wind R&D, 
with an additional $118 million allocated through the American Recovery 
and Reinvestment Act of 2009.
    Question 2. Please provide an overview of the Departments current 
wind research and development efforts. Is the research called for in 
H.R. 3165 duplicative of ongoing wind research efforts at the 
Department?
    Answer. The activities proposed in H.R. 3165 appear largely 
consistent with much of the work currently underway at the Department 
of Energy (DOE), and with DOE's 20% Wind Energy by 2030 report. The 
Department already engages in research and development (R&D) activities 
described in Section (2)(b) of the bill. However, H.R. 3165 does not 
propose specific authorization for wind energy environmental research, 
such as the effects of wind turbines on wildlife and habitat, which is 
of major concern to the wind industry and communities considering wind 
power development.
    The Department's wind energy research is currently focused on 
improving the performance and lowering the costs of wind technology; 
improving the integration of wind energy into the electrical grid; 
addressing barriers to the responsible deployment of wind power 
systems; and supporting the development of a domestic supply chain and 
workforce for wind energy. The Department carries out these activities 
through its National Laboratories, and through public-private 
partnerships with industry and academia.
    Question 3. Since there is already over 25,000 megawatts of land 
based wind power installed in the United States, is there really a need 
to conduct a wind energy demonstration program?
    Answer. The Department supports placing special emphasis on 
demonstrating highly innovative land-based wind designs and offshore 
wind technologies, including integrated systems, components, 
structures, materials and infrastructure.
    There is an identified need for demonstration of advanced wind 
plant performance characterization methodologies and applications 
(including forecasting, wake effects, and aeroelastic interactions), as 
well as advanced manufacturing techniques to help increase the domestic 
content and cost competitiveness of wind turbine components.
    Technologies that need a robust demonstration program include new 
advanced turbine components, materials, and, most importantly, nascent 
offshore wind technologies. The U.S. currently does not have any 
offshore wind energy systems installed. Much of this can be attributed 
to complexity in the regulatory framework and related permitting 
requirements, low technology maturity, lack of minimum infrastructure 
such as adequately outfitted ports and vessels, an untrained labor 
force, and the perception of risk among potential investors. Therefore, 
offshore wind may need the support of a demonstration program in order 
to establish its viability in the U.S. The National Renewable Energy 
Laboratory estimates that the U.S. offshore wind resources, including 
the Great Lakes, exceed 2500 Gigawatts.\1\
---------------------------------------------------------------------------
    \1\ ``Large-Scale Offshore Wind Power in the United States: 
Assessment of Opportunities and. Barriers'', NREL Report (unpublished 
DOE-funded study, 2007).
---------------------------------------------------------------------------
    DOE's 20% Wind Energy by 2030 study concludes that with dedicated 
policy support, at least 54 Gigawatts of this potential could 
realistically be developed by 2030.\2\
---------------------------------------------------------------------------
    \2\ ``20% Wind Energy by 2030, Increasing Wind Energy's 
Contribution to the U.S. Electricity Supply'' DOE/GO-102008-2567, July 
2008.
---------------------------------------------------------------------------
    Question 4. How much wind energy research and development is 
performed by the wind industry?
    Answer. Over the last two decades, the wind industry has worked 
with the Department of Energy (DOE) to advance wind technology and 
develop state-of-the-art wind turbines. These projects require 
substantial cost-share from industry. For example, one industry member 
contributed over $4.5 million in cost-share to a project with DOE to 
develop a 1.5 MW wind turbine. DOE understands that the American Wind 
Energy Association's research and development (R&D) action plan calls 
for annual non-federal wind energy R&D spending of at least $224 
million in order to supply 20 percent of the Nation's energy from wind 
resources by 2030. European Commission estimates suggest that the wind 
industry provides roughly three-quarters of all European wind R&D 
funding, with the remaining quarter coming from national governments 
within the European Union. For example, one foreign wind turbine 
manufacturer spent $175 million on R&D in 2008, while a U.S. 
manufacturer of utility-scale wind turbines spent $21.1 million. The 
wind industry continues to invest in R&D to develop new multi-megawatt 
onshore and offshore wind turbine designs, to optimize wind turbine 
component designs and materials, and to improve the reliability and 
cost-competitiveness of wind turbine technology.
           h.r. 3246--advanced vehicle technology act of 2009
    Question 1. I'm concerned that if the federal government 
dramatically increases its spending on vehicle technology R&D, 
companies within the industry will be incentivized to reduce their own 
spending. Do you believe a cost-share between the federal government 
and private industry should be required for any activities carried out 
under this bill? If so, what do you believe would be an appropriate 
level for that cost-share?
    Answer. Government uses a broad portfolio-based approach to 
supporting research, development, and demonstration projects in the 
energy area and attempts to scale funding to the need. Federal support 
is targeted to areas where there is evidence that the private sector on 
its own is not supplying sufficient funding. The closer a technology is 
to commercialization, the more the Federal government requires of the 
private sector to minimize crowding out. For instance, cost-sharing is 
an important mechanism for leveraging government funds and insuring 
that the Government's partners focus on topics relevant to the market. 
The cost-share requirements set forth in Section 988 of the Energy 
Policy Act of 2005 (minimum of 20 percent cost share for R&D projects 
and minimum of 50 percent cost share for demonstration and 
commercialization projects) have proved effective in meeting these 
objectives.
    Question 2. I'm also concerned by the overlap that could result 
from the passage of this bill. H.R. 3246 includes a section requiring 
the Secretary to ``ensure, to the maximum extent practicable'' that 
activities carried out under the bill do not duplicate existing 
efforts. Aside from much higher spending, can you please elaborate on 
how the program set up by this bill differs from the activities already 
being carried out by EERE's Vehicle Technologies program, NETL's 
Advanced Vehicles and Fuels Research program, the Advanced Technology 
Vehicle Manufacturing Incentive program, and other similar federal 
programs?
    Answer. Many of the activities proposed by H.R. 3246 represent 
ongoing work currently underway in the Department's Vehicle 
Technologies Program. H.R. 3246 updates existing authorities from the 
Energy Policy Act of 2005 (EPAct 05) from a technology standpoint, as 
well as ensures that many current EPAct 05 authorizations set to expire 
in the next several years do not expire. The Department does not 
anticipate duplication of existing efforts.
    Question 3. Has the Department looked at any other ways to spur 
innovation within the private sector? For example, instead of providing 
nearly $3 billion more for R&D, could the establishment of a prime rate 
loan program result in similar gains in fuel economy and lower 
emissions at lower cost to taxpayers?
    Answer. The Department has initiated new programs to spur private 
sector innovation in both research and development (R&D) and 
manufacturing. Examples of R&D investment include the Advanced Research 
Projects Agency-Energy (ARPA-E) and the support the Department provides 
for deployment through credit programs such as the Advanced Technology 
Vehicles Manufacturing Loan Program (ATVM). The Department's support of 
long-standing programs, such as Small Business Innovation Research 
(SBIR), has achieved notable success for vehicle technology 
development, as exemplified by Al23 Systems. With initial SBIR funding 
in 2001, Al23 Systems was able to further its lithium ion battery 
technology development, receive additional competitively-awarded 
Departmental R&D fluids, and raise additional capital from private 
sector partners. Al23 Systems recently received, through competitive 
award, Recovery Act funds to scale up and build automotive battery 
manufacturing facilities in the United States that are expected to 
support the widespread use of plug-in hybrid and other electric 
vehicles.
    Question 4. Earlier this year, the Energy Committee passed a bill 
that would require the National Academy of Sciences to complete a 
comprehensive ``transportation roadmap'' to evaluate the potential of 
many of the technologies listed in this bill. Would it make more sense 
to complete that study before funding all of these technologies, rather 
than funding all of these technologies without a good understanding of 
where our limited federal dollars are likely to be most effective?
    Answer. The Department is currently working with the National 
Academy of Sciences (NAS) to support a $2.2 million study focused on 
light-duty vehicle fuel economy, as directed by the Energy and Water 
Development and Related Agencies Appropriations Act, 2010. The study is 
scheduled to begin this year; over the course of the two-year effort, 
the NAS will rely on data from the Department's Vehicle Technologies 
Program and others to perform an analysis. Based on preliminary 
information from the ongoing NAS review as well as previous NAS reviews 
of the FreedomCAR and Fuel Partnership, the Department's technology 
portfolio--which emphasizes vehicle electrification--is appropriate. 
The International Energy Agency's Electric and Plug-In Hybrid Roadmap 
mirrors DOE emphasis on drivetrain electrification. Two authorization 
bills currently under Congressional consideration, H.R. 3246 and S. 
2843, would authorize a research, development and demonstration program 
that is very well aligned with the current DOE program focus.
                h.r. 3585--solar technology roadmap act
    Question 1. This legislation establishes a Solar Technology Roadmap 
Committee, with at least one-third of the Committee members to come 
from the solar industry, in order to create a Solar Technology Roadmap 
to direct DOE's solar research. Does the Department believe such a 
Roadmap Committee is necessary? What is the Administration's position 
on potentially allowing non-federal employees to direct Federal 
activities?
    Answer. The Department's Solar Energy Technologies Program actively 
solicits and receives input from stakeholders in industry, the National 
Laboratories, and academia through peer-reviews, as well as from other 
formal and informal discussions over many years. The Department is 
actively strengthening its external review process to receive input and 
comments from outside stakeholders. As written, the proposed 
legislation binds the Department's research and development efforts to 
the recommendations of the Roadmap Committee, requiring the Department 
to follow the Committee's recommendations for 75 percent of all funding 
appropriated for the Solar Energy Technologies Program by 2015. While 
the Department welcomes additional industry input and support for 
demonstration projects, DOE is particularly concerned about this bill's 
practical effects, which will constrain the flexibility the Depailnent 
has to respond to diverse sources of information and explore new 
breakthroughs in technology development. The Department is also greatly 
concerned about having non-federal employees direct Federal activities.
    Question 2. H.R. 3585 requires the Department of Energy to spend an 
increasing, minimum amount of the solar program budget--30% starting in 
2012 and increasing to 75% in 2015--as directed by the Roadmap 
Committee's research and development recommendations. What if the 
Energy Secretary does not agree with the Roadmap Committee's R&D 
recommendations? Do you believe that this legislation unnecessarily 
ties the Department's hands?
    Answer. As written, the proposed legislation unnecessarily binds 
the Department's research and development (R&D) efforts to the 
recommendations of the Roadmap Committee, requiring the Department to 
follow the Committee's recommendations for 75 percent of all funds 
appropriated for the Solar Energy Technologies Program by 2015. The 
Department urges the Congress instead to stipulate that the Committee 
provide non-binding advice and recommendations traditionally provided 
by publicly-chartered Federal advisory committees. Providing the most 
effective solar technology R&D programs requires the Secretary and the 
Department to make a series of constantly evolving judgments. This 
legislation will constrain the flexibility the Department has to 
respond to diverse sources of information and explore new breakthroughs 
in technology development.
    Question 3. Please provide an overview of the Department's current 
solar research and development efforts for Concentrating Solar Power 
technology, Photovoltaics, and solar thermal water heating technology. 
To date, how much as the federal government spent on solar research and 
development?
    Answer. The Department of Energy (DOE) has significantly increased 
its support for solar energy technologies over the last five years--
growing from $83 million in Fiscal Year (FY) 2006 to $247 million in FY 
2010--to enable the U.S. to compete in the global marketplace with 
cost-competitive solar energy by 2015. The total 30 years' investment 
in solar research and development (R&D) since the Department's 
inception in 1979 is approximately $6.1 billion (in 2008 dollars). This 
funding has helped the U.S. become the world leader in innovative solar 
technology, and may be compared with investments of nearly $24 billion 
for Nuclear Energy R&D and Infrastructure, $41 billion for Fossil 
Energy R&D, and over $15 billion for Fusion Energy R&D over that time 
period.
    The DOE Solar Energy Technologies Program focuses on reducing 
photovoltaic (PV) manufacturing costs, proving that concentrating solar 
power (CSP) systems can provide dispatchable power through the use of 
low-cost thermal storage, and providing the thermal energy needs of a 
Zero Energy Building.
    The CSP subprogram is focusing its efforts in four major areas: (1) 
R&D of low cost systems that include thermal storage to achieve cost 
competitiveness in the intermediate and baseload power markets; (2) 
establishment of a demonstration program of new CSP technologies that 
could lead to gigawatt-scale deployment of CSP projects; (3) working 
with the Bureau of Land Management (BLM) in identifying BLM-managed 
land environmentally suitable for utility-scale solar projects and (4) 
addressing market acceptance issues related to water consumption and 
transmission.
    The PV subprogram priorities are to: (1) conduct R&D on existing 
and current PV technologies that have the potential to achieve cost 
parity with conventional electricity generation sources by 2015; (2) 
increase the lifetime of PV components and systems, and prove the 
market viability of new PV technologies; (3) in coordination with the 
Office of Electricity, conduct R&D to allow for wide scale integration 
of PV systems within the existing grid system; (4) conduct outreach to 
key state and national stakeholders that can help remove market 
impediments for the adoption of PV technologies.
    The Solar Heating and Cooling activity within the Building 
Technologies Program supports R&D on (1) exemplary low-cost solar water 
heating systems for net-zero energy homes (ZEH) in cold climates and 
the development of prototype systems; (2) combined solar heating, 
cooling, and water heating systems that utilize seasonal storage to 
achieve high solar fractions; (3) dehumidification applications for 
combined photovoltaic/thermal systems for ZEH; and (4) support of a 
solar rating and certification system.
    Question 4. How much solar energy research and development is 
performed by the solar industry?
    Answer. As most U.S. solar companies are private and have no 
obligation to publicly disclose their spending, direct figures on non-
governmental research and development (R&D) spending by the solar 
industry are not available. The best proxy measurement for non-
governmental R&D spending is early stage (venture capital and private 
equity) investments in solar companies. While some of this funding is 
used for manufacturing scale-up, a large proportion of early stage 
investments is for R&D. In addition, there is R&D spending that is 
funded by later stage investments, such as debt and public equity. In 
2008, U.S. solar companies received approximately $2.6 billion of 
venture capital and private equity investments (source: Bloomberg New 
Energy Finance, http://www.newenergymatters.com/).
    Question 5. H.R. 3585 specifically exempts the Solar Technology 
Roadmap Committee from the Federal Advisory Committee Act. What is the 
Department's position on this exemption?
    Answer. Creating the most effective solar technology research and 
development (R&D) programs requires the Department of Energy (DOE) to 
make a series of constantly evolving judgments. It is important that 
the Department be allowed to call on multiple sources of information 
when formulating solar technology R&D priorities. Legislation should 
not constrain the Department's flexibility to respond to diverse 
sources of information, as would be the case currently proposed by 
Sections 102 and 103 of H.R. 3585. However, the Department may support 
the establishment of an advisory committee from which DOE may receive 
collective input to better inform its decisions related to these 
matters. If the committee is only advisory to the Secretary, the 
Department does not see any reason to exempt the committee from the 
Federal Advisory Committee Act.
              s. 737--biofuels for small non-road engines
    Question 1. What is the current status of the program required by 
Section 248 of the 2007 energy bill? Has it been created by the 
Department, and if so, what progress has been made in each of its nine 
focus areas?
    Answer. Research and testing on most of the nine focus areas 
identified in Section 248 of EISA 2007 are underway. Some results are 
in review for publication. Summary of progress in the nine focus areas:

          (1) Corrosion of metal, plastic, rubber, cork, fiberglass, 
        glues, or any other material used in pipes and storage tanks--
        In coordination with the Environmental Protection Agency, the 
        Department is conducting materials testing on components of 
        underground storage tanks and on metals, elastomers, and 
        plastics commonly used in dispensing equipment. Performance 
        testing on dispensers and distribution components (hoses, 
        nozzles, swivels, breakaways and one submersible turbine pump) 
        is also ongoing.
          (2) Dissolving of storage tank sediments--Not currently 
        funded.
          (3) Clogging offilters--Ongoing research is being conducted 
        on dispenser filters as a component of the full dispensing 
        system.
          (4) Contamination from water or other adulterants or 
        pollutants--Not currently funded.
          (5) Poor flow properties related to low temperatures--
        Completed for biodiesel use in vehicles and not considered 
        significantly different for small engines; not considered 
        relevant for other commercially available biofuels. 
        Publications can be found at http://www.nrel.gov/
        vehiclesandfuels/npbf/pdfs/cftr_72805.pdf
          (6) Oxidative and thermal instability in long-term storage 
        and uses--Complete for biodiesel; ongoing for other biofuels. 
        Multiple biodiesel publications can be found at http://
        www.nrel.gov/vehiclesandfuels/npbf/pubs_biodiesel.html#quality.
          (7) Microbial contamination--Not currently funded. The issue 
        is considered well-understood by industry and does not require 
        additional Departmental research.
          (8) Problems associated with electrical conductivity--Not 
        directly under study, but research currently underway on 
        materials compatibility for E15 and E20 includes corrosion, 
        which is affected by electrical conductivity.
          (9) Such other areas as the Secretary considers appropriate--
        Areas not currently being addressed are not impeding the near-
        term deployment of biofuels.

    Question 2. The Fiscal Year 2010 Energy and Water Appropriations 
bill included $7.5 million for the Vehicle Technologies program at DOE 
to ``expand and accelerate'' the testing of intermediate fuel blends. 
Does your Department intend to include small, non-road engines--such as 
those used in outdoor equipment and boats--in its tests as part of the 
required expansion?
    Answer. Yes, small, non-road engines will be included in Fiscal 
Year 2010 tasks, including studies that are currently underway or are 
being planned to examine the effects of intermediate ethanol blends on 
chainsaws and marine engines. Additional studies on motorcycles and 
snowmobiles are planned and may be conducted pending evaluation of 
incoming data on the marine and chainsaw testing.
    Question 3. Could you take just a minute and summarize what 
preliminary testing, such as the testing completed by the Oak Ridge 
National Laboratory, has suggested about the use of ethanol in small, 
non-road engines?
    Answer. Oak Ridge National Laboratory, the National Renewable 
Energy Laboratory, and the Transportation Research Center (a commercial 
testing laboratory in Ohio) have completed tests on a variety of small, 
non-road engines. Emissions and exhaust temperature testing using 
blends of EO, El 0, E15, and E20 was conducted on power washers, 
generators, leaf blowers, and line trimmers in their new and full-life 
conditions. On each engine type, low-cost general use and higher-price 
fuel types were tested.
    Testing showed that as ethanol levels increased, small, non-road 
engines operated less fuel-rich, leading to higher temperatures of both 
the exhaust and engine components and to changes in the exhaust 
emissions. In general, hydrocarbon (HC) and carbon monoxide (CO) 
emissions tended to decrease with higher ethanol content, while oxides 
of nitrogen (NOx) emissions tended to increase. Combined HC+NOx 
emissions (which are regulated as such) decreased in most cases. As 
ethanol content in the fuel increased, some engines experienced higher 
idle speeds and unintentional clutch engagement due to less-rich 
operating conditions. No obvious material compatibility issues were 
observed during these tests.
 s. 1617--investments for manufacturing progress and clean technology 
                                  act
    Question 1. Please describe the role, if any, that the Industrial 
Technologies Program at the Department of Energy will play within the 
loan program, as envisioned in S. 1617.
    Answer. The Loan Guarantee Program Office (LGPO) supports 
innovative energy technology projects that reduce or sequester 
greenhouse gases, including many of the technologies that would be 
supported by S. 1617. To achieve the Program's goals, the LGPO works in 
close coordination with the relevant DOE program offices including 
Fossil Energy, Nuclear Energy and Energy Efficiency Renewable Energy. 
In the context of Title XVII this coordination and role is ongoing; the 
LGPO will continue to access technical expertise provided by the 
program offices, including the Industrial Technologies Program, in 
matters such as developing solicitations and reviewing loan guarantee 
applications.
    Question 2. What skills will be needed to reflect the range of 
activities the program needs for long-term success?
    Answer. U.S. manufacturers need employees with ever-increasing 
skills to compete in the global marketplace, particularly in growing 
industries such as clean technologies. Increasing worker education and 
training will be central to achieving long-term manufacturing success. 
The knowledge and skills of manufacturing employees at all levels--from 
technicians to engineers to plant managers--on energy technology 
management, as well as the manufacture of clean energy technologies, 
needs to be significantly strengthened.
    The Department's Industrial Technologies Program (ITP) has a 
history of developing industrial energy efficiency resources, including 
tools, training and energy assessments that assist manufacturing staff 
in saving energy. Studies conducted by trade organizations and 
government organizations, including the United Nations Environment 
Programme, have indicated a wide set of skills will be required not 
only for the manufacture of clean technology and energy efficient 
products, but also for their implementation. These skills and 
associated professions include planning and design; project management 
and procurement; technical-engineering skills related to energy 
management; trade skills including electrical and mechanical skills; 
and computer operation or software specialization. In addition, 
entrepreneurial skills can often be as important as technical knowledge 
for emerging industries. Availability of workers with these skill sets 
will be beneficial to the retooling, expansion, and improvement of U.S. 
manufacturing facilities. The Department's ITP will coordinate with 
other agencies to assist in identifying the needed skills in 
manufacturing to support the implementation and manufacturing of clean 
energy technologies.
    Question 3. Please describe the role that the industrial assessment 
centers will play in assisting the small and medium sized firms in 
improving their energy efficiency.
    Answer. The Department's 26 Industrial Assessment Centers (TACO 
provide engineering services and technical assistance to small and 
medium sized firms by conducting no-cost energy audits at manufacturing 
plants. An engineering professor experienced in energy auditing and 
several students lead each energy audit. The audit analyzes a wide 
range of energy uses at the plant, including heating, cooling, 
lighting, steam, and motor applications and provides a report with 
recommendations that typically identifies about 10 percent reductions 
in energy use. About 300 energy audits are conducted every year 
throughout the U.S. IAC personnel also familiarize plant personnel with 
the Department's software decision tools, training possibilities, 
technical information, energy management methods and other materials 
which can enable plant workers to make continuing improvements to their 
energy systems. At any time, the IAC program employs approximately 200 
engineering students who are acquiring energy-engineering skills for 
application in professional careers. The IAC program serves as a model 
approach for strengthening the U.S. clean energy manufacturing supply 
chain.
    Question 4. Please describe how the loan program our Committee 
passed earlier this year (ACELA, Title II, Subtitle A, SEC 201) will be 
coordinated with this new loan program in addressing energy efficiency 
improvements within the industrial sector?
    Answer. The Administration has not taken a position on either ACELA 
or S. 1617. As such, the Department has no view on how the two pieces 
of legislation might be coordinated if passed.
s. 2773--offshore wind energy research, development, demonstration and 
                   commercial application act of 2009
    Question 1. Is the Department currently undertaking any research 
and development work for offshore wind resources?
    Answer. The Department seeks to address barriers to responsible 
offshore wind energy development, including the technical challenges 
posed by the harsh marine environment, as well as the permitting and 
environmental challenges associated with siting offshore projects. The 
Department is providing approximately $25 million in projects in Fiscal 
Years 2009 and 2010 appropriations and Congressionally Directed 
Projects, to support offshore wind energy through feasibility 
assessments, environmental studies, and technology research and 
development. These projects include a recently launched research 
consortia headed by the University of Maine to develop composite 
floating platforms for offshore wind turbines. In addition, the 
Department of Energy is investing up to $70 million in Recovery Act 
funds to create facilities capable of testing next-generation land-
based and offshore wind turbine drivetrains and blades. These 
facilities, located in Boston, Massachusetts, and Charleston, South 
Carolina, will improve U.S. competitiveness in offshore wind energy 
technology by supporting the testing of next-generation designs.
    Question 2. According to the American Wind Energy Association, 
offshore winds are stronger and more consistent than wind resources 
located across land. To date, however, there are no offshore wind 
projects in this country, even though the Cape Wind project has been 
under development since 2001. Why is the United States so far behind 
Europe, which already has over 600 megawatts of installed offshore wind 
capacity?
    Answer. The fact that no offshore wind projects have been installed 
in the U.S. to date can largely be attributed to the complex regulatory 
framework and related federal and state permitting requirements faced 
by project developers. While U.S. policies for offshore oil and gas 
extraction are well established, policies, regulations and processes 
for offshore wind energy development are still in development, although 
tremendous strides toward clarification have been made in 2009 through 
Federal/State collaboration.
    Significant financial investments are being made in Europe to 
support installation of offshore wind turbines and support 
infrastructure. Investment in the development of commercially operated 
offshore projects in Europe is approximately =3 billion (approximately 
$4.1 billion) per year and is expected to increase to =8 billion 
(approximately $11 billion) per year by 2020. Government policies and 
regulations set the stage for the research, investment, and development 
needed to create a sustainable offshore wind industry and send signals 
to the financial community regarding the viability of the sector. While 
the U.S. government has supported wind technology deployment through 
tax incentives such as the Production Tax Credit, Investment Tax 
Credit, and American Recovery and Reinvestment Act Section 1603 grants, 
these incentives do not distinguish between land-based and offshore 
wind energy projects, and do not lend themselves as well to offshore 
wind. In order to qualify for these tax credits or grants, project 
construction must commence before the end of 2012. This deadline is 
currently unrealistic for offshore wind projects, which face a 
significantly longer development and permitting process than land-based 
wind projects.
    A significant step forward in clarifying the regulatory context for 
U.S. offshore wind development occurred in April 2009, when the 
Department of Interior's Minerals Management Service (MMS) issued final 
regulations governing all renewable energy projects on the Outer 
Continental Shelf (OCS). The Energy Policy Act of 2005 gave MMS lead 
agency authority over offshore alternative energy and alternate use 
activities on the OCS. Prior to this explicit authorization, the 
regulatory approval pathway for offshore wind development in Federal 
waters was undefined.
    To date, several project developers such as Cape Wind have 
successfully completed a number of the steps required for offshore wind 
permitting and siting approval, including environmental reviews. 
However, they still remain several years from being able to actually 
install systems, given the remaining requirements that must be met.
    Recent strong support for offshore development by East Coast and 
Great Lakes states, coupled with collaborative efforts by MMS, such as 
the formation of state task forces and Interior Secretary Salazar's 
announcement of the opening of an Atlantic Off-Shore Wind Permitting 
Office on December 14, 2009, promise to greatly streamline the 
permitting process for developers. These steps send a strong signal to 
potential investors that the hurdles that have delayed offshore 
development in the U.S are being addressed.
    Question 3. Based on Europe's experience, does the Department 
believe offshore wind facilities will interfere with shipping or 
fishing interests? What about the effects on marine life? Finally, how 
do offshore wind facilities handle severe weather?
    Answer. Offshore wind energy presents a different set of potential 
risks to the environment and coastal communities than land-based wind. 
The Department works with other agencies, such as the Department of 
Interior's Minerals Management Service (MMS), to identify priority 
research areas relating to environmental and human impacts of offshore 
wind turbines. Several studies from Europe indicate that while no 
significant negative effects on birds, mammals, or other biological 
factors from existing offshore wind projects have been observed to 
date, uncertainties and risks remain. Research funded by DOE to 
determine the effects of offshore technologies on marine habitats and 
ecosystems is currently underway. Robust research, thoughtful 
stakeholder engagement and careful siting will allow for the 
development of clean, affordable, domestic offshore wind energy while 
protecting the environment and stakeholder interests.
    The severe weather associated with the marine environment requires 
offshore wind turbines to be more rugged and durable than those 
installed on land. National safety certification standards can help 
ensure that offshore wind technology and facilities are designed to 
withstand the effects of severe offshore waves and wind. DOE works with 
MMS to review existing national safety certification standards and how 
to apply the standards to the design and operation of U.S. offshore 
wind turbines and structures, taking into account regional 
considerations such as hurricane winds and storm driven waves of the 
mid-and north Atlantic. Application of these standards will ensure the 
safe installation and operation of wind turbines in U.S. waters.
    Question 4. S. 2773 directs the Secretary to competitively award 
grants to establish one or more National Offshore Wind Centers at 
institutions of higher education. Does the Department believe such 
National Offshore Wind Centers can assist its research and development 
efforts?
    Answer. A coordinated national offshore wind energy program 
supporting focused research and development (R&D) would help facilitate 
the long term clean energy and economic benefits of a mature offshore 
wind energy industry. Establishing an integrated network of national-
scale research and development centers supporting this effort could be 
important to the success of such a program. Such institutions, whether 
universities, National Laboratories, or other independent or industry-
supported research centers, could be awarded DOE funding focused on 
specific regional or technical research efforts. Examples of focused 
research include turbine systems optimized for Great Lakes or Gulf of 
Mexico conditions, floating foundations optimized for deep water 
applications in the Atlantic and Pacific Oceans, test facilities to 
validate and understand the resiliency of wind turbines to hurricanes, 
ice floes, and other site conditions unique to U.S. waters, and the 
development of baseline environmental studies and regional databases to 
be used to streamline project review and permitting processes.
    Examples of planned national-scale facilities and R&D efforts that 
have recently been selected for DOE funding, and could support a 
coordinated national offshore wind energy effort include:

  <bullet> Up to $45 million from the Recovery Act to Clemson 
        University for a Large Wind Turbine Drivetrain Testing facility 
        featuring power analysis equipment capable of performing highly 
        accelerated endurance testing of drive systems for land-based 
        and offshore wind turbines rated at 5-15 megawatts;
  <bullet> Up to $25 million in Recovery Act funding to the 
        Massachusetts large wind blade test facility, which will be the 
        only U.S. test center capable of testing wind turbine blades up 
        to 90 meters long for both land-based and offshore wind energy 
        systems, and;
  <bullet> Up to $8 million in Recovery Act funding plus $5 million 
        through Congressionally directed, funding to a consortium led 
        by the University of Maine to develop and test floating 
        foundation systems capable of supporting large wind turbines in 
        deep water.
  Responses of Kristina M. Johnson to Questions From Senator Stabenow
    Question 1. Undersecretary Johnson--you mentioned in your testimony 
that by including hydrogen and fuel cell activities as an eligible 
technology in the Advanced Vehicle Technologies Act this would 
duplicate existing authorities such as the Energy Policy Act of 2005 
that also includes authority for hydrogen technologies.
    Answer. The Department is concerned that H.R. 3246 would be 
considered the sole authorization for all vehicle R&D activities, 
including those currently sponsored by the Vehicle Technologies and 
Hydrogen and Fuel Cell Technologies Programs. The current level of 
funding appropriated for these programs plus the expanded medium and 
heavy-duty vehicle authorization outlined in the Act currently exceeds 
the total authorization level cited by the Act for Fiscal Year 2010. 
Hydrogen and fuel cell activities detailed in Title VIII of the Energy 
Policy Act of 2005 are currently authorized through 2020,. All of these 
activities are listed as only one of 26 technology areas in H.R. 3246, 
Section 101. Most of the other vehicle technologies areas in H.R, 3246 
have authorizations that expire before the hydrogen and fuel cell 
authorization, and many expire by 2015. The Department has no issue if 
H.R. 3246 is intended as a supplemental authorization to previous 
authorizations.
    Question 2. Why is hydrogen the only example of a technology that 
DOE already has other authorities to perform R&D functions on? 
Certainly you could say the same for electric batteries and components, 
as an example, which has various authorities under EPACT 05 and EISA 
07.
    Answer. The Department is concerned that H.R. 3246 would be 
considered the sole authorization for all vehicle R&D activities, 
including those currently sponsored by the Vehicle Technologies and 
Hydrogen and Fuel Cell Technologies Programs. The current level of 
funding appropriated for these programs plus the expanded medium and 
heavy-duty vehicle authorization outlined in the Act would currently 
exceed the total authorization level cited by the Act for Fiscal Year 
2010. Hydrogen and fuel cell activities detailed in Title VIII of the 
Energy Policy Act of 2005 are currently authorized through 2020. All of 
these activities are listed as only one of 26 technology areas in H.R. 
3246, Section 101. Most of the other vehicle technologies areas in H.R. 
3246 have authorizations that expire before the hydrogen and fuel cell 
authorization, and many expire by 2015. The Department has no issue if 
H.R. 3246 is intended as a supplemental authorization to previous 
authorizations.
    Question 3. Congressman Peters and I envision this bill to be a 
comprehensive and integrated R&D authority for as many priority vehicle 
technologies as possible, fully recognizing that it may supplement or 
compliment ongoing activities at DOE. We did not want the legislation 
to miss any important R&D activities and or minimize future 
technologies that may advance vehicle energy efficiency. We created an 
umbrella authority where a certain level of duplication is appropriate.
    Answer. The Department appreciates the Senator's statement and now 
better understands the intent of the legislation.
    Question 4. Finally, I want to emphasize the importance of hydrogen 
technologies. The recent Energy and Water Appropriations bill 
appropriated $175 million for hydrogen related activities. This was 
after the DOE recommended reduced the funding from $180 million to $60 
million. Clearly, Congress views hydrogen as an important technology to 
continue to pursue for the long term, especially as other foreign 
companies have made it clear that hydrogen is still a potentially game 
changing technology for vehicles in the next 10 years or so.
    Answer. The Department recognizes that hydrogen could play an 
important role in the Nation's energy future. The Department plans to 
spend approximately $52 million in Fiscal Year 2010 for basic research 
relating to hydrogen and fuel cells in the Office of Science in 
addition to the $174 million appropriated for the Hydrogen and Fuel 
Cell Technologies Program in the Department's Office of Energy 
Efficiency and Renewable Energy, The Department also has an active 
leadership role in the international hydrogen and fuel cell community, 
coordinating with more than 15 countries and the European Commission 
through high-level international partnerships and through collaborative 
work on R&D projects. This level of international engagement allows the 
Department to stay abreast of global progress, to leverage that 
progress to the benefit of domestic technology development efforts, and 
to ensure U.S. competitiveness in these critical, emerging 
technologies.
    Question 5. Can you explain more about DOE's views on the future of 
hydrogen fuel cell R&D as it relates to vehicles?
    Answer. The Department is pursuing a diverse and inclusive 
portfolio of both near-and longer-term technologies to reduce 
greenhouse gas emissions and petroleum use in the transportation 
sector. Hydrogen and fuel cells, advanced biofuels, and batteries are 
all essential elements of this portfolio. The Department believes that 
having a diverse array of technology options will help the United 
States meet its long-term energy goals. Accelerating the deployment of 
hydrogen and fuel cell technologies in near-term markets--such as 
stationary power and specialty vehicles--is critical to the longer-term 
viability of hydrogen and fuel cell technologies. The success of 
hydrogen and fuel cells in these markets will help drive down costs by 
building a domestic supply base and achieving economies of scale in 
manufacturing. Early market success could also spur investment and 
innovation in the technologies, hastening progress for longer-term 
applications, including fuel cell electric vehicles.
   Response of Kristina M. Johnson to Question From Senator Barrasso
    Question 1. In your testimony, you raised concerns regarding 
intellectual property language included in S. 2744. Will you provide 
specific legislative changes that would address the Department's 
concerns?
    Answer. The intellectual property (IP) language in Section (7) of 
S. 2744 provides that as a condition to receiving an award, the 
applicant must vest IP relating to carbon dioxide capture technology in 
one or more entities incorporated in the U.S. For prize legislations, 
the H-Prize Act (P.L. 110-140, Sec. 654) being one example, we have 
concluded that the value of the resulting IP for significant 
technological breakthroughs generally is worth more than the proceeds 
from the prize itself. As a result, any IP provisions that seek to 
divest title or otherwise encumber IP are viewed as a deterrent to 
participating in such prize competitions. We would recommend the 
following IP provision from the H-Prize Act, Sec. 654 (f)(4):

          Intellectual property.--The Federal Government shall not, by 
        virtue of offering or awarding a prize under this subsection, 
        be entitled to any intellectual property rights derived as a 
        consequence of, or direct relation to, the participation by a 
        registered participant in a competition authorized by this 
        subsection. This paragraph shall not be construed to prevent 
        the Federal Government from negotiating a license for the use 
        of intellectual property developed for a prize competition 
        under this subsection.

   Responses of Kristina M. Johnson to Questions From Senator Corker
    Question 1a. Under H. R. 2729 as currently drafted, how can the 
interests and needs of the local governments that are hosts to the 
proposed Environmental Research Parks be protected when their interests 
are in conflict with those of the Environmental Research Parks?
    Answer. Currently, the Department of Energy as owner of the DOE 
laboratories and the sites which they occupy, is responsible for 
addressing and accommodating, to the extent possible, the interests and 
needs of the surrounding local governments and citizenry. Regardless of 
the outcome of H.R. 2729, the Department will continue to work with 
local communities and governments in furtherance of the general 
welfare.
    Question 1b. Would you support modifying the legislation so that 
these local governments can have meaningful input into interim and 
permanent land use decision making processes? If so, how would you 
suggest doing that?
    Answer. H.R. 2729 provides ample provisions for local community 
involvement, through public education and outreach activities and 
through requirements that the Department enter into cooperative 
agreements with local institutions of higher learning. Accordingly, 
modification of the legislation is not necessary.
    Question 2a. How can land parcels that are currently under 
consideration for transfer to the nearby local government best be 
protected from land use alternatives that are envisioned by the 
legislation?
    Answer. The Department is in the process of transferring several 
parcels at sites that would be designated as ``National Environmental 
Research Parks'' under H.R. 2729. The draft deeds will be revised to 
contain a restrictive use covenant that specifies that the property is 
not subject to the requirements set forth in H.R. 2729.
    Question 2b. When the Department of Energy has agreed to transfer 
land to a local government, how can those agreements, memoranda of 
understanding, or land use options be privileged and protected should 
new land use priorities established by the legislation change the 
context of the aforementioned agreements?
    Answer. Any proposed land transfers would be accomplished by a 
transfer of deed, which would be legally binding; nonbinding documents 
like memoranda of understanding would not be used. Once the deed has 
been executed by the Department, the deed would contain a restrictive 
use covenant, that specifies that the property is not subject to the 
requirements set forth in H.R. 2729. Any executed deeds would be 
accessible to the public, as public records, and would not be 
privileged or protected.
                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

Statement of Hon. Gabrielle Giffords, U.S. Representative From Arizona, 
                              on H.R. 3585
                              introduction
    Chairwoman Cantwell, Ranking Member Risch, Members of the 
Subcommittee, thank you for the opportunity to offer my views on H.R. 
3585, the Solar Technology Roadmap Act of 2009. As the lead sponsor of 
this legislation in the House of Representatives, I believe it is well 
designed to achieve critical research and development (R&D) goals in 
solar energy technologies with the potential for significant public 
benefit. I appreciate the opportunity to clarify the thinking behind 
some of the provisions of this legislation and respond to critiques of 
the bill.
                         the solar opportunity
    Investing in solar power offers a tremendous opportunity for us to 
stimulate our economy, increase our national competitiveness, 
strengthen our national security, and reduce the environmental and 
public health impacts associated with electric power production.
    History makes a powerful case for investing in solar R&D. 
Photovoltaic (PV) technologies have consistently declined in price 
every year since they were introduced onto the market, driven by 
improved research and development as well as steady increases in sales 
volume. In 1954, approximately one watt of PV devices was manufactured; 
in 2009, approximately one billion watts will be manufactured 
worldwide. Non-PV solar technologies, including solar thermal 
technologies, are also improving rapidly. Current estimates are that 
commercially available solar products will achieve grid parity with 
fossil fuel-based power within the next five years.
    According to testimony provided by Ken Zweibel (Director of the 
George Washington University Solar Institute and a former long-time 
solar researcher at the National Renewable Energy Laboratory) at a 
hearing held by the Energy & Environment Subcommittee of the House 
Committee on Science & Technology, a relatively small Department of 
Energy program of $5-15M per year called the Thin Film PV Partnership 
``nurtured several second generation PV technologies from bench-top to 
multibillion dollar annual sales. Two key U.S. companies [today], 
UniSolar and First Solar, were substantial participants. Both are now 
world leaders in PV technology, and in fact, First Solar was the second 
largest manufacturer of PV modules in the world last year.''
                          authorization levels
    I would like to respond to concerns that have been expressed by 
some about the authorization levels in this bill. I believe the best 
justification for the proposed authorization levels comes from taking a 
historical look at Federal investment in energy R&D. Between 1978 and 
2007, the U.S. government spent $30 billion on R&D for nuclear energy 
alone, and another $24 billion on fossil fuel research.\1\ During the 
same period we spent less than $6.5 billion on solar energy, and more 
than half of that research was performed prior to 1985.\2\
---------------------------------------------------------------------------
    \1\ U.S. Energy Information Administration, Federal Financial 
Interventions and Subsidies in Energy Markets 2007, Report #:SR/CNEAF/
2008-01.
    \2\ DOE Budget Authority History Table by Appropriation; DOE 
Congressional Budget Requests.
---------------------------------------------------------------------------
    Some might think these disparities are justified based on the 
respective electricity-generating potential of these different 
technologies, but that is not the case. Indeed, the opposite is true. 
Our nation's solar resources are truly vast in scale, and they are 
capable of making a significant contribution to our energy needs. Using 
technology available today, solar power could meet the electricity 
demands of the entire United States on a square piece of land 
approximately 100 miles by 100 miles, or about 10,000 square miles.\3\ 
For comparison, at least that much land area is currently covered by 
artificial lakes behind hydroelectric dams, which provide less than 10% 
of our nation's electricity. Solar analysts at DOE are currently 
preparing a study that outlines how, with the right incentives, solar 
power could meet as much as 20% of America's electricity needs by the 
year 2030. That is the same proportion of our power currently provided 
by nuclear energy.
---------------------------------------------------------------------------
    \3\ Estimate assuming 5 acres/megawatt from NREL FAQ (http://
www.nrel.gov/csp/troughnet/faqs.html#land); EIA, Electric Power 
Industry 2007: Year in Review.
---------------------------------------------------------------------------
    Despite the enormous scale of the solar resource, its tremendous 
electricity-generating potential, and its relatively low social costs, 
we have spent just one-tenth as many resources developing solar 
technologies as we have developing nuclear power. In the last thirty 
years, we have spent four times more money developing coal technology 
as solar, even though burning coal for power is a profitable business 
that has been around for over 100 years, while solar is still an 
emerging technology. At the end of the term covered by my bill, it 
would authorize $550 million for solar R&D. Yet at the peak of the 
energy crisis in the 1970s, we spent $2.9 billion a year on nuclear 
power development alone, and $1.8 billion on fossil fuels.\4\
---------------------------------------------------------------------------
    \4\ U.S. Energy Information Administration, Federal Financial 
Interventions and Subsidies in Energy Markets 2007, Report #:SR/CNEAF/
2008-01. Figures are in 2007 dollars.
---------------------------------------------------------------------------
    I fully support having strong research programs in nuclear, coal, 
and other important energy options. The fact I wish to highlight is 
simply that we have consistently underinvested in renewable energy R&D, 
including solar R&D, relative to its potential to benefit our nation. 
The funding levels authorized in H.R. 3585 are amply justified by the 
vast potential of the solar resource and global market opportunity for 
new solar technologies. It is time for the scale of our solar 
investments to match the scale of the solar opportunity.
                      responding to doe testimony
    The most innovative feature of H.R. 3585 is a provision that calls 
for the establishment of a committee to create a Solar Technology 
Roadmap. The committee would consist of a minimum of eleven members, 
all selected by the Secretary of Energy (Secretary) and appointed to 
three-year terms. Members would be solar experts drawn from diverse 
backgrounds, including industry, academia, national laboratories, and 
other entities or organizations as appropriate. At least one third, but 
no more than one half of the members would come from industry. The 
committee's task would be to develop a research plan--or roadmap--to 
identify R&D needs in order to advance solar technologies in the near- 
(up to 2 years), medium- (5-7 years), and long-terms (up to 15 years). 
The bill calls for the roadmap to be updated every year and completely 
overhauled every three years to keep up with the evolution of solar 
technologies. Importantly, the bill also calls for a portion of funds 
appropriated for the solar R&D program to be allocated according to the 
recommendations in the roadmap, starting with 30% in FY 2011 and rising 
gradually to 75% in FY 2015.
    The written testimony on H.R. 3585 submitted by Dr. Kristina 
Johnson, Undersecretary of Energy, identifies the Department of 
Energy's (DOE's) ``greatest concern'' as the fact that the bill would 
``require the Department to form a semi-autonomous Committee that will 
largely govern the solar-energy activities at the Department.'' Dr. 
Johnson correctly points out that the bill, as written, would bind, at 
least partially, the Department's R&D efforts to the recommendations of 
the Roadmap Committee, requiring the Department to follow the 
Committee's recommendations for the allocation of a steadily increasing 
percentage of the total amount appropriated for solar R&D, ultimately 
topping out at 75% in 2015. However, H.R. 3585 would not empower the 
Roadmap Committee to ``largely govern'' the Department's solar energy 
activities. The Committee could only provide recommendations in the 
form of a roadmap. The Department is not legally bound to carry out all 
of these recommendations, nor even necessarily follow the top 
priorities identified. In addition, the Roadmap Committee has no power 
to award grants, and is explicitly barred from recommending specific 
recipients of funds.
    Dr. Johnson concludes by urging Congress instead to stipulate that 
the Roadmap Committee would provide non-binding advice and 
recommendations. Although Dr. Johnson identifies the partial binding of 
funding decisions to the roadmap as the Department's greatest concern, 
she does not provide a convincing explanation of why it is a concern 
(e.g. how the proposal would fail to promote the public interest) or 
how the Department's preferred course would mitigate the concern.
    Later in her testimony, Dr. Johnson does attempt to justify the 
Department's position by explaining that, ``providing the most 
effective solar technology research and development programs requires 
the Secretary and the Department to make a series of constantly 
evolving judgments. It is important that we be allowed to call on 
multiple sources of information when we formulate our solar technology 
R&D priorities, and that we be responsive to provided information. . 
.''
    I could not agree more, and that is precisely why the H.R. 3585 
requires that the solar roadmap be updated annually and that solar R&D 
funding be tied to the recommendations of the Roadmap Committee; it is 
to ensure that resource allocation decisions are consistent with the 
up-to-date recommendations that emerge from a multi-stakeholder process 
involving experts from across the solar R&D community. Far from 
obstructing consultation with, and responsiveness to, ``multiple 
sources of information,'' H.R. 3585 would require it. While I applaud 
recent Department initiatives to consult with solar stakeholders in 
industry, the national laboratories, and academia, there is no current 
requirement that DOE officials consult with these stakeholders or 
anyone else in making their R&D decisions. H.R. 3585 would ensure that 
these diverse stakeholders are not only consulted, but that their 
recommendations are heeded as the Department allocates Federal solar 
R&D dollars.
    I realize that 75% is a significant portion of the total funding 
for solar R&D. However, when we are talking about ensuring that 
taxpayer money is allocated in accordance with a long-term research 
plan created through a multi-stakeholder process, it is hard to 
understand why people might think this is a bad idea, especially 
considering that the roadmap would be published for all to see. In 
terms of transparency, long-term thinking, and integration of diverse 
views, the roadmap process would far exceed anything required of DOE 
today. What's more, the roadmap idea is not new or untested; it is 
based on the highly successful Technology Roadmap for Semiconductors, a 
semiconductor industry-led initiative that has been widely hailed as 
contributing to steady and rapid technological advancement in that 
industry since the early 1990s.
    In contrast with the proposed roadmap process, right now solar R&D 
funding decisions are made according to whatever rationale DOE may deem 
appropriate. There is no assurance of transparency, no long-term 
planning requirement, and there is no obligation to consult with 
industry or other stakeholders. For members of Congress concerned with 
responsible stewardship of taxpayer dollars, the roadmap process should 
come as a welcome proposal.
    Finally, even if 75% of R&D funding were allocated in accordance 
with the roadmap, fully 25% of the R&D budget would remain free to be 
allocated to projects outside the purview of the roadmap. If the full 
authorized amount were to be appropriated in 2015, that 25% alone would 
be more than the entire appropriation for solar R&D in the American 
Recovery and Reinvestment Act of 2009.
                               conclusion
    I am gratified that in her testimony Dr. Johnson acknowledges the 
value of a roadmap-like process in discussing DOE's own plans to 
establish an external advisory board to review the entire solar program 
several times a year. There appears to be widespread agreement, both 
inside and outside DOE, that such a process would add value. H.R. 3585 
simply takes the next logical steps, first by giving the external 
reviewers explicit instructions to examine technical hurdles over 
different time horizons, and then by ensuring that, once solicited, 
their expert advice is used as a template to guide Federal solar R&D 
programs.
    On October 22, 2009, the House of Representatives provided a 
ringing endorsement for increased Federal investment in solar R&D and 
the roadmap concept by passing H.R. 3585 by a strong bipartisan vote of 
310 to 106. I encourage the Senate to take up this legislation and pass 
it without significant modification so that our nation may strengthen 
its leadership in solar technology development in the years to come.
                                 ______
                                 
  Statement of Ilan Kroo, Leland T. Edwards Professor of Engineering, 
   Department of Aeronautics and Astronautics, Stanford University, 
                      Standford, CA, on H.R. 3165
    I am writing to support the inclusion of innovative new approaches 
to wind energy in the Department of Energy's (DOE) Wind Energy Research 
and Development Act of 2009. In addition to the program topics 
currently proposed, I believe it is critical to invest in innovative 
new approaches to wind power. As an example, concepts for airborne wind 
energy generation have been proposed by several companies, and funding 
for these unconventional, but high-potential projects, could be very 
important at this time.
    Most of the current research in wind energy systems has focused on 
incremental improvements to individual system components and improved 
methods for modeling conventional wind turbines. This research, if 
successful, will lead to important, but small, advances in current 
systems. Unconventional concepts for wind energy generation have, by 
contrast, received little serious research and development support. 
Although many of these concepts are not feasible for utility-scale 
power generation, those that do appear feasible should be an important 
part of the nation's research program. I therefore encourage the 
inclusion of innovative approaches to wind energy, including airborne 
and high-altitude wind power as a research topic in DOE's wind energy 
research. Amending HR3165 will give the pioneers of these new 
technologies the opportunity to compete for available funding within 
the DOE. Your support for this amendment will help meet federal energy 
goals, create new jobs, and ensure that the United States leads in the 
development of this innovative technology.
                                 ______
                                 
  Statement of the Solar Energy Industries Association, SEIA, on H.R. 
                                  3585
    Established in 1974, the Solar Energy Industries Association (SEIA) 
is the national trade association of solar energy industry. As the 
voice of the industry, SEIA works with its 1,000 member companies to 
make solar a mainstream and significant energy source by expanding 
markets, removing market barriers, strengthening the industry and 
educating the public on the benefits of solar energy.
    SEIA would like to commend the leadership of Representative 
Gabrielle Giffords on HR 3585. Representative Giffords is an outspoken 
and articulate supporter of the solar industry who understands that in 
order for the solar energy industry to accelerate its pace of growth 
and contribute to job creation, economic development, energy self-
reliance and improved environmental quality in the United States, we 
will need to build on our long-standing and highly successful 
partnership with the Department of Energy (DOE) on research, 
development and deployment (RD&D) of all solar technologies: PV 
(Photovoltaics), CPV (Concentrating Photovoltaics), CSP (Concentrating 
Solar Power), Solar Heating and Cooling. The continued support of 
Congress for solar RD&D and initiatives like HR 3585 are essential for 
continued progress.
    Historically, DOE has prepared solar roadmaps in collaboration with 
all key stakeholders including industry, academia, utilities, and a 
wide-ranging mix of local and national energy constituencies. The PV 
Manufacturing Roadmap is a recent example of this success, which has 
led to measurable and substantial improvements in cost reduction and 
performance improvement. The cost of solar panel production has 
declined from $33/W in 1979 to as low as $1/W today. As a result of 
this progress, we have seen increasing deployment of solar technologies 
on homes and commercial roof-tops as well as large, central station 
systems.
    DOE and the national labs have produced significant results in the 
CSP side of the industry as well. DOE funding at the national labs 
helped develop a trough that was used in the largest CSP trough 
facility to be built in nearly 2 decades. Acciona Energy's Nevada Solar 
One, a 64-MW plant near Boulder City, Nevada, came online in June 2007. 
DOE and Sandia National Lab have supported development of dish-Stirling 
technology, culminating in the first commercial dish-Stirling plant, 
coming online near Phoenix Arizona in December 2009.
    SEIA proposes to build on the success of these efforts leads and 
supports an inclusive planning process with DOE for all solar energy 
technologies.
    Many of the SEIA member manufacturing companies were born out of 
the integrated circuit (IC) industry or with the support of technical 
leaders from that sector. We know that industry roadmaps, like the 
International Technology Roadmap for Semiconductors (ITRS), accelerated 
innovation and cost reduction in the integrated circuit equipment and 
manufacturing arenas. However, we believe a roadmap process modeled on 
the ITRS that was helpful in the IC industry would be inappropriate for 
the solar industry, now and for the future.
    Consider the evolution of the IC industry. In the early stages of 
growth, the core material--silicon--was configured in several different 
device architectures. Once the CMOS (complementary metal--oxide--
semiconductor) structure in silicon emerged as the most scalable single 
solution, the ITRS roadmap was implemented and linewidth nodes from 
65nm to 45nm to 22nm to 15 nm became the framework for defining tools. 
In contrast, a solar cell has only one device architecture, a diode, 
but there are literally thousands of material possibilities, including 
monosilicon, multisilicon, thin film silicon, cadmium telluride, and 
copper indium diselenide.
    An important reason for the success of the IC roadmap was that, 
unlike the solar industry, the IC industry had a natural split of 
intellectual property between processing and chip design and there was 
a shared interest between those two groups of companies in mechanical 
aspects of wafer size and linewidth geometry. With the competitive 
landscape of material and device narrowed to one each, then a 
prescriptive roadmap was relevant to the next wave of predictable 
progress.
    The PV segment of the solar industry also differs from the IC 
industry in the make-up of the final product. Given that half or more 
of the cost of a solar power system can be driven by the balance-of-
system cost (e.g. sales, marketing, permitting, financing, delivery, 
installation, monitoring, operations and maintenance of the system), we 
recognize that any solar roadmap should incorporate learning from mass 
production manufacturing sectors like the automotive industry, the 
construction industry, and large household appliances. We already see 
examples of the onward march of manufacturing expertise entering the 
solar industry from auto businesses like Bosch in Europe and BYD in 
China.
    Further, we see the emergence of vertically integrated stakeholders 
which span the value chain elements of manufacturing silicon, growing 
ingots, building solar panels and installing their own power plants.
    The solar industry must have the flexibility to address a wide 
spectrum of end-user applications ranging over three orders of 
magnitude from 500MW power plants in the desert to 5kW residential 
rooftops, and over a range of environmental conditions, building and 
land characteristics, and end-customer preferences. The solar industry 
also has a strong innovation culture with private funding for, and 
success in, a wide range of materials, processes and device designs 
developed in highly competitive individual small businesses. 
Fortunately, the scale of the solar industry even at this early stage 
of development is large enough that a single U.S. photovoltaics 
manufacturer, such as SunPower Corp., First Solar, United Solar, BP 
Solar, Sharp Solar or SolarWorld, can drive tool vendors to develop 
machines for the millions of solar panels produced annually by any 
innovative, but company-unique technologies. Furthermore, tool vendors, 
such as Applied Materials, are at a scale to establish a market for 
flexible tool-platforms for both unique technology platforms and 
continuously variable configurations, specific for customers' unique 
roadmaps. This diversity enables faster growth because the competition 
of ideas is always at work. By accelerating cost reduction for the 
benefit of all the different approaches have different supply chain 
constraints and the diversity of products satisfies a greater range of 
end-user requirements.
    We thus support an inclusive planning process with DOE to develop a 
roadmap that supports and rewards a rich diversity of PV, CPV, CSP and 
solar heating and cooling that are responding to market demands without 
prematurely ``picking a winner'' through prescriptive funding assigned 
by a select few. One of the key features of a successful roadmap will 
be to integrate flexibility at the same time as scaling is enabling 
further cost reduction in solar electric power.
    Some of our colleagues in the solar industry are just launching 
their production manufacturing. Consider CIGS technology, or PVGU (PV 
Glazed Units). Should those kinds of technologies find good success in 
manufacturing reliable solar panels at a low cost, we would not be wise 
to establish a rigid roadmap that directs DOE away from facilitating 
the rapid expansion of such promising technologies. We want all current 
successful technologies to be encouraged to ramp up as quickly as 
possible without putting up hurdles to new, promising technologies born 
from our current public and private solar investments.
    Finally, we applaud the spirit and intent of HR 3585 to increase 
funding and enhance RD&D for solar at DOE. However, we would like to 
ensure that the actual funding for R&D continues to grow while 
enhancing the scale of the deployment efforts by DOE. The OMB estimated 
outlay of $193 million from HR 3585 in 2011 is below 2009 total solar 
RD&D DOE funding, and section 105 prescribes significant expenditures 
for large-scale deployment support for certain specific project sizes. 
Over the last three years, department support of research, development 
and deployment in support of commercializing innovative technology and 
driving total system cost reduction has been very effective; we believe 
that a decrease in this type of funding would have negative 
consequences, especially in light of the extreme risk-aversion to 
technology exhibited by the financial community after the past year's 
credit crunch. With the combination of section 105 project deployment 
funding and the potential diversion of up to 75 percent of DOE solar 
RD&D funding to select roadmap purposes, we are concerned that the 
substantial success of recent DOE solar funding could be at risk.
    We all support continued growth of funding for the full spectrum of 
solar technologies, (PV, CPV, CSP & Solar Thermal) across the value 
chain in addition to the specific project and roadmap funding 
contemplated in this bill.
    Thank you for the opportunity to comment and support the increased 
funding contemplated by HR 3585 and Representative Giffords.
                                 ______
                                 
       Statement of Len Shepard, CEO, Sky WindPower, on H.R. 3165
    I urge you to consider including language specific to high altitude 
wind power in any wind, climate or energy legislation, including HR3165 
and related bils. Everyone who flies across the United States has 
experienced the tremendous power in high altitude winds. As you know, 
that is why it typically takes 4-5 hours to cross our continent going 
west to east and 5-6 hours east to west. Because the wind at altitude 
is not limited to ridge lines or other surface geography, we have the 
flexibility to tap this tremendous power source using existing 
transmission lines. High altitude wind energy conversion systems can 
transform the energy landscape, generating enough power to meet the 
USA's most aggressive renewable energy goals. We need your support to 
achieve that.
    This November's High Altitude Wind Power Conference revealed 
diverse methods from nearly a dozen companies to convert high altitude 
winds into clean energy. About 50 million private sector dollars have 
been invested in a half dozen of these companies that are developing 
airborne technologies to tap this very high (50-80%) capacity factor 
wind power.
    A new industry of American leadership and jobs can be gained with 
your support. Government funding for this new industry will 
significantly decrease the time to bring this power source on line and 
increase the speed at which new clean tech jobs are created. America is 
the right place to develop these systems because the aerospace 
technology and know-how is here.
    We and others believe that high altitude wind power conversion 
systems can take us cleanly through the 21st century and beyond. Time 
Magazine included Sky WindPower's Flying Electric Generators as one of 
the 50 Best Inventions of 2008. The July 30, 2009 issue of Nature 
displayed the efforts of Makani Power, Joby Energy, Magenn Power, and 
Sky WindPower. Recently, Sky WindPower was featured under utilities in 
the London Times. The December 2009 issue of Scientific American 
included Flying Electric Generators in their ``20 World Changing 
Ideas.''
    You can help us achieve energy independence, exceed carbon emission 
reduction targets, and create American jobs by supporting the 
development and testing of high altitude wind power conversion systems. 
Thank you in advance for your consideration.
                                 ______
                                 
   Statement of Gabriel Hugh Elkaim, Associate Professor, Autonomous 
  Systems Lab, Computer Engineering, University of California, Santa 
                         Cruz, CA, on H.R. 3165
    Through my work as a researcher of applied control systems at the 
University of California at Santa Cruz, I've become acquainted with the 
efforts of Joby Energy, Inc. and others working to develop airborne 
wind turbine technology. This small group of innovative entrepreneurs 
is leading the exploration of new technology that has the potential to 
revolutionize the wind turbine industry.
    As you are undoubtedly aware, wind energy as conventionally 
implemented has very serious problems with capacity and intermittency; 
the fact that the energy is diffuse and low-density and requires backup 
generation capacity (hot idling peakers) or a currently unavailable 
smart electric grid to move the energy across geographically diverse 
regions such that scattered wind effects ``average'' out. Technological 
advances will help the efficiencies at the margins, but this is 
essentially a problem of physics. Germany's experience in large scale 
wind energy portfolio and required gas turbine backups makes this 
abundantly clear.
    By ``lifting'' the turbine to high altitude and the jet stream, 
many of these problems can be addressed. The science is clear: high 
altitude wind holds a vast amount of energy and recent technology 
advances and innovative engineering now make it possible to harness 
that energy and put it to work. While the engineering challenges are 
great, the physics are very much in favor of the high altitude 
solution.
    Amending H.R. 3165 to include research foci on high altitude wind 
and airborne wind turbine technology will enhance current research and 
development efforts to potentially deliver options for timely and 
responsive solutions to our energy crisis.
    Thank you for your consideration.
                                 ______
                                 
Statement of JoeBen Bevirt, Founder, Joby Energy, Inc., Santa Cruz, CA, 
                              on H.R. 3165
    I am writing to request the inclusion of amendments to support 
exploration of high-altitude wind energy as a research topic for the 
Wind Energy Research and Development Act of 2009 (HR 3165).
    Specifically, we request that the words ``and altitudes'' be 
inserted on page 3, line 20 after ``variety of wind conditions''; and, 
on page 4, line 4 insert (9) ``airborne wind turbine technology'' 
(version dated September 10, 2009).
    These amendments will allow developers of this transformational 
technology to compete for research and development funding at the 
federal level.
    Currently, federally supported efforts to advance conventional wind 
energy technologies yield only incremental efficiency gains. However, 
energy generation is truly limited by the low capacity and 
intermittency of surface winds.
    Research conducted by Dr. Ken Caldeira of Stanford University and 
Dr. Cristina Archer of California State University shows that high-
altitude winds are significantly stronger and more consistent than 
surface winds. Focus on the research and development of airborne wind 
turbines can help harness high-altitude wind, a vast and dependable 
source of energy.
    Several innovative companies, in collaboration with academia, are 
developing airborne wind turbines that can generate renewable energy at 
a cost and capacity comparable with coal power plants.
    Additionally, the deployment of reliable and low-cost renewable 
energy technology will help achieve energy independence, create 
numerous jobs, and mitigate environmental damage.
    Therefore, I am requesting the Committee act to spur the 
exploration of high-altitude wind energy and development of airborne 
wind turbines by amending HR 3165. Harnessing this resource presents a 
true cost-effective alternative to fossil-fuel based power generation.
    Thank you for your consideration.
                                 ______
                                 
   Statement of Corwin Hardam, Founder and CEO, Makani Power, Inc., 
                       Alameda, CA, on H.R. 3165
    At altitudes just above conventional wind turbines, there is a wind 
energy source that is too large to ignore. Recent studies by Dr. 
Caldeira (Stanford) and Dr. Archer (Cal State) have shown the available 
energy in the winds at altitude above the continental US to be many 
times greater than the current global level of consumption. At this 
time, American companies are the technology leaders in the exploration 
of this untapped resource. For the success of these companies, it is 
critical that you include language specific to airborne wind energy in 
any wind, climate or energy legislation, particularly HR3165 and 
related bills.
    This new resource has been vetted by the private sector. Google 
Inc. is a strong supporter in airborne wind energy and has invested 
$15M in our company. However, private equity alone cannot establish 
this technology at the utility scale and must be coupled with Federal 
support to establish airborne wind energy as a viable area of 
exploration. This cannot happen unless high-altitude wind energy is 
listed as a research topic for the Wind Energy Research and Development 
Act of 2009 (HR 3165).
                                 ______
                                 
 Statement of Grant Calverley, President, SkyMill Energy, Inc, Friday 
                        Harbor, WA, on H.R. 3165
    SkyMill Energy, Inc., supported by The Boeing Company, is 
developing an innovative technology that could generate an almost 
unlimited supply of renewable energy for our nation from high altitude 
winds. We would greatly appreciate your help with fixing the 
unintentional omission of high altitude wind power research in bill 
HR3165, the Wind Energy Research and Development Act of 2009 .
    High-altitude wind represents an enormous and untapped form of 
highly concentrated renewable energy. The US appears to seriously lag 
several countries in research and funding to find a commercially 
practical technology to tap this abundant potential resource. The DOE 
currently has no apparent activity in this area.
    SkyMill Energy, other US based high altitude wind power 
researchers, propose to demonstrate such transformational technologies. 
SkyMill's innovative system is performing successfully in subscale 
prototypes and high-fidelity engineering simulations. The results to 
date suggest that a full-scale commercial system could outperform 
current-technology land based wind turbines by over a factor of five.
    Due to the current complete lack of DOE interest in airborne wind 
power technologies, SkyMill Energy is investigating a mix of Chinese 
venture capital, Chinese government funding and Chinese airspace to 
commercialize our system. This is not our preferred development path, 
but one we may be forced to follow with out a change in policy.
    HR3165 properly supports a variety of programs to advance 
terrestrial wind turbine technology, however, the current bills wording 
precludes funding for any high altitude wind power technologies. 
Following are two suggested changes.

          Sec. 2 (b) (6) advanced control systems and blade sensors to 
        improve performance and reliability under a wide variety of 
        wind conditions and altitudes;
          Sec. 2 (b) (new line item after item (8) Airborne wind power 
        technologies.

    Thanks for your assistance.
                                 ______
                                 
     Statement of Cristina L. Archer, Department of Geological and 
Environmental Sciences, California State University Chico, Chico, CA on 
                               H.R. 3165
    I am writing to encourage your support of amending HR 3165 to 
include language that would promote exploration of high altitude wind 
energy and research and development of airborne wind turbines for 
capturing this immense resource. Inclusion of this language in the Wind 
Energy Research and Development Act of 2009 would help innovators in 
the emerging high-altitude wind power sector to bring this new 
technology to fruition.
    It is known that winds typically get stronger with increasing 
altitude. Through research at Stanford University and California State 
University we have extensively characterized this phenomenon and 
estimated the power potential of global tropospheric winds. The power 
contained in high-altitude winds is not just higher but also more 
consistent, in general, than winds near the Earth's surface.
    In November 2009, we hosted the first annual High-Altitude Wind 
Power conference in northern California, drawing participation from 
several technology developers and researchers in this field. The 
results of their work show tremendous promise for the deployment of 
low-cost, reliable and clean energy.
    I believe the research and development of technologies to harness 
the power of high-altitude winds can dramatically increase our 
renewable energy generation while establishing our technical leadership 
and enabling energy independence.
    Again, I encourage you to support these amendments that are crucial 
to help solve our energy crisis.
                                 ______
                                 
   Statement of Michael G. Wheeler, County Council Chair, Los Alamos 
                  County, Los Alamos, NM, on H.R. 2729
    On behalf of the Incorporated County of Los Alamos, New Mexico 
(``County''), I am writing to express the County's support for the 
National Environmental Research Park Legislation (H.R. 2729, To 
authorize the designation of National Environmental Research Parks by 
the Secretary of Energy, and for other purposes) (``NERP Legislation'') 
provided certain amendments are made to the NERP Legislation that are 
described in this letter and set forth in Attachment A.*
---------------------------------------------------------------------------
    * Document has been retained in subcommittee files.
---------------------------------------------------------------------------
    The NERP Legislation will provide funding for ongoing environmental 
research at U.S. Department of Energy (``DOE'') sites around the 
country. The important mission of each environmental research park is 
to conduct research, train people in ecological and environmental 
sciences and to educate the public.
    The County has learned that NERP activities at those DOE sites 
where they are sufficiently funded have been valuable to the adjacent 
communities. The current programs have ensured that the communities 
adjacent to DOE sites are educated on the positive environmental 
activities at the DOE sites. Further, the NERP Legislation will provide 
researchers at Los Alamos National Laboratory with sufficient funds to 
continue their important environmental research and expand the program 
to include community education. The County supports such activities and 
wants similar education, outreach, and research programs to occur 
throughout Northern New Mexico.
    Upon reviewing the NERP Legislation, the County has two primary 
concerns: 1) the need for community input into the creation of formal 
environmental research parks, and 2) the potential unintended 
consequence that environmental research parks may impact ongoing 
activities at DOE sites--including land transfer which is critical for 
the County's future self-sufficiency and economic diversification. To 
address these two concerns, the County recommends the following 
amendments to the NERP Legislation (which are inserted into the 
legislation as Attachment A for your reference):

  <bullet> Section 2(b) is amended by inserting: ``(b) Local Government 
        Involvement-Prior to designating each National Environmental 
        Research Park, the Secretary of Energy shall seek input from 
        the effective units of local government surrounding each site 
        regarding each local National Environmental Research Park.''
  <bullet> Renumber previous Sections 2(b) through 2(f) accordingly.
  <bullet> Section 2(f) (as renumbered) is amended by inserting: ``(4) 
        update local communities on National Environmental Research 
        Park activities.''
  <bullet> Section 3 is amended by inserting as the last sentence: 
        ``Nothing in this Act shall be construed to constrain the 
        transfer of lands otherwise surplus and excess to programmatic 
        needs of the Federal Government to surrounding local 
        communities.''

    Each of the suggested changes should not change the actual 
operation of these proposed environmental research parks and should 
only clarify what the County has been told by the parties advocating 
this NERP Legislation--that the NERP legislation will not impact 
ongoing activities at the sites. The County also believes the suggested 
amendments will enhance involvement and participation by the local 
governments at the other DOE sites identified in the NERP Legislation 
which will only enhance the educational outreach activities and ensure 
that a broader community is aware of these scientific endeavors.
                                 ______
                                 
   Statement of Klaus S. Lackner, Maurice Ewing and J. Lamar Worzel 
 Professor of Geophysics, Chair, Department of Earth and Environmental 
    Engineering, Columbia University, Director, Lenfest Center for 
  Sustainable Energy at the Earth Institute, Columbia University, New 
                                York, NY
    I saw the hearing notice for the Air Capture Prize and am pleased 
to submit a testimony for the record. While it is understood that 
capturing carbon dioxide emissions from power plants is necessary to 
reduce greenhouse gases in the atmosphere, dilute capture of carbon 
dioxide is of particular long-term importance. Unlike more widely known 
carbon capture and storage (CCS) technologies, dilute capture 
development would especially benefit from a prize such as the one being 
considered by this bill.
    We need new technologies like air capture to complement existing 
CCS strategies. Since capture from dilute sources can be done anywhere 
at any time, it is particularly well-suited to start small in niche 
markets where there is demand for commercial carbon dioxide. Offering a 
prize for the development of dilute carbon dioxide capture technology 
is a positive move to encourage technology research and development. 
The prize creates visibility and will foster entrepreneurial approaches 
and a healthy spirit of competition. With successful implementation, it 
will stimulate efforts in the right direction which will ideally have 
future government involvement to ensure long-term success.
    I am encouraged by this Air Capture Prize bill and believe it will 
result in valuable advances in the development of new technologies in 
the dilute capture of carbon dioxide.
    Thank you for your time and attention.
                               attachment
                                                 November 30, 2009.

    I am Klaus S. Lackner, Ewing-Worzel Professor of Geophysics at 
Columbia University. My research focuses on the management of carbon 
and carbon dioxide to avoid climate change. I am investigating 
technologies that can provide plentiful, clean energy from fossil fuels 
without contributing to the build-up of carbon dioxide in the 
atmosphere. While I certainly build on a foundation of earlier work, I 
am generally considered to have started the concept of air capture of 
carbon dioxide for managing the atmosphere's carbon loading. By now 
there are a number of different research groups pursuing this goal. and 
I have helped found a company that aims to develop commercially viable 
air capture. I am also working at Columbia University to understand the 
underlying basic mechanism of dilute capture of carbon dioxide.
    While one might debate the highest acceptable level of carbon 
dioxide in the atmosphere, there is little argument that there is a 
threshold that should not be exceeded. Unfortunately, holding the 
carbon dioxide level of the atmosphere constant at any reasonable level 
will require drastic reductions in emissions before the world breaches 
this threshold. It is not sufficient to hold emissions constant. 
Persistent global emissions, even if they were three times smaller than 
today's emissions, would drive the carbon dioxide concentration over 
any such threshold. The natural return to an earlier level, even after 
stopping all emissions. could take many centuries or even millennia. 
Holding the line at a third of current global emissions would permit a 
world average per capita emission that is but a few percent of the 
current per capita emissions in the United States. The concerns over 
climate change challenge the viability of fossil fuels, which 
unavoidably produce carbon dioxide when they are consumed.
    At the same time, all countries that strive for improvements in 
their living standards and desire to maintain economic growth will need 
ready access to affordable energy. Policies must provide access to 
increasing energy supplies while stopping the accumulation of carbon 
dioxide concentrations in the atmosphere. This is the conundrum of 
climate change. Simply abandoning fossil fuels over the next few 
decades in favor of other alternatives is impractical. The enormous 
price strains in the oil sector over the last decade were driven by far 
smaller mismatches in supply and demand than would occur if more than 
80% of the world's energy infrastructure would need to be phased out. 
Fortunately, it is not necessary to stop the use of fossil fuels if the 
carbon dioxide produced can be kept out of the atmosphere. It is the 
emissions of carbon dioxide not the use fossil fuels that need to be 
eliminated.
    Although carbon capture and storage (CCS) technologies by 
themselves may be insufficient for stabilizing the climate in a timely 
fashion, without CCS, stabilization is a nearly impossible task. This 
is especially true if the commonly cited threshold of 450 parts per 
million (ppm) of CO<INF>2</INF> in the air proves to be the critical 
limit. While one must consider all options from improved energy 
efficiency, to non-fossil energy alternatives, one must include carbon 
dioxide storage, because abandoning fossil fuels would be extremely 
disruptive to the global economy.
    Much of the focus in CCS has been on capture from large 
concentrated sources of carbon dioxide, like power plants, steel plants 
and cement plants. However, a large fraction of all emissions comes 
from small, dilute and distributed emission sources. CCS could make a 
far larger contribution to climate stabilization if it could also 
address the capture of carbon dioxide from dilute sources, among them 
the atmosphere itself If CCS is to contribute significantly to an 
emissions reduction of 80% in the United States by 2050, then it is 
necessary to address the transportation sector, the home sector, and 
all those emissions that would otherwise be too difficult to control. 
Capture from dilute streams, particularly from the air. offers the 
opportunity to reduce emissions across the board. Capture from dilute 
streams is quite different from other methods of capturing carbon 
dioxide. Its feasibility seems counterintuitive to some. Why should it 
be possible to collect carbon dioxide from streams that are several 
hundred times more dilute than those encountered in power plants? Yet 
the thermodynamic analysis is quite clear. The additional energy 
required for air capture when compared to flue gas scrubbing is indeed 
small. While some detractors still point to engineering rules of thumb, 
these generic rules do not address the specifics of real 
implementations that have been demonstrated, and these rules seem 
similar to those used to ``demonstrate-that heavier-than-air flight is 
not possible. These types of objections ignore that birds can fly and 
trees can collect carbon dioxide from the air.
    Analysis reveals that a windmill that would reduce emissions by 
displacing fossil-fuelproduced electricity would be far larger than a 
carbon dioxide collector that would recapture an equivalent amount of 
carbon dioxide. Moreover, I and others have shown that the minimum 
binding strength of the carbon dioxide absorber need not be much larger 
than the binding strength required to capture carbon dioxide from the 
flue stack of a conventional coal fired power plant. The analogy to 
windmills suggests that contacting the air is not limiting the process; 
the analogy to power plants suggests that the dominant costs are 
similar to those encountered in flue gas scrubbing.
    Unlike carbon dioxide capture from large concentrated sources, 
capture from the air can be done anywhere and anytime. This means it is 
possible to start small. Rather than trying to solve the carbon 
management problem at once, one can begin by filling the small market 
niche of industrial and commercial carbon dioxide demand. A big power 
plant would immediately overwhelm any local market for carbon dioxide. 
Unlike power plant capture and storage, capture from dilute streams can 
become a standalone business that can operate on any scale. One can 
start with individual entrepreneurs and small companies that sell 
physical carbon dioxide or create carbon dioxide credits. The market 
for carbon reductions is potentially very large, but today's prices are 
low. The market for physical carbon dioxide that is used for 
industrial, agricultural and commercial applications is much smaller, 
and prices vary geographically, but in some locations where carbon 
dioxide is trucked in over large distances these prices are currently 
very high. Carbon dioxide capture from dilute sources, specifically 
from the air, provides an enormous arbitrage opportunity that--even in 
its early stages when a ton of carbon dioxide is still expensive--can 
satisfy commercial demands. Thus, dilute capture will create a business 
opportunity that allows bootstrapping the technology in ways that are 
not possible in the utility sector. Such a business will see climate 
change demands as an opportunity, in contrast to an existing utility, 
which at best will see carbon management as an unavoidable cost of 
doing business.
    Offering a prize, such as the one proposed by this bill, for the 
development of dilute carbon dioxide capture technology is a positive 
move to encourage technology development. The prize creates visibility, 
and it provides a clear sign of the realization that we need more than 
business as usual to lead us to carbon dioxide stabilization. By 
focusing on dilute streams, the prize is offered to the one sector in 
the carbon management arena that is open to entrepreneurial approaches. 
The prize. if implemented as intended, would offer a challenge and will 
stimulate efforts in the right direction. Just like the DARPA challenge 
for autonomous cars, it will bring forward numerous small entrepreneurs 
and academic institutions that will focus on the theoretical 
underpinnings. Supporting such development is a good idea. It will 
create more competition in a field that is new and accelerate it from a 
few players to a bigger development in a short time.
    Since, as I argue below, the technology is not only feasible but 
also transformative, a prize alone will not be sufficient to assure 
development of this field. The prize will focus entrepreneurial energy, 
engender debate and deliver a proof of principle. However, ultimately, 
a technology of such importance deserves ongoing governmental support. 
Capturing carbon dioxide from the air will be an important development. 
A recent article in Nature by Sarewitz and Nelson, pointed out that air 
capture if it can be done, has all the important features necessary to 
solve the climate change problem. Air capture, combined with CCS, 
addresses the root of the problem, which is the accumulation of the 
carbon dioxide in the atmosphere. It does so without forcing 
established technologies out of business, and it assures that any 
emission of carbon dioxide, no matter how difficult to control at the 
source, can be canceled out or compensated for. Institutional barriers 
are easier to overcome if entrenched interests are not forced out. Once 
air capture is implemented, it provides a baseline against which all 
other capture options could be measured.
    Capture of carbon dioxide from ambient air clearly could play a 
major role in the transportation sector. It would make it possible to 
retain gasoline, diesel and jet fuel for cars, trucks and air planes. 
Liquid carbon based fuels provide an exceptionally convenient and 
energy-dense option for storing energy on board of vehicles. The use of 
air capture makes it possible to retain these fuels.
    It is my assessment that the cost of air capture can be driven down 
to the point where it would add no more than ten percent to the price 
of gasoline. While I can give reasons why this is plausible, the only 
way to prove such a bold statement is to deliver on this goal. The 
prize will spur such development.
    It is quite possible that Jim Hansen is correct and that we have 
already exceed the safe limit of carbon dioxide in the air, or that 
even with the best of intentions, we cannot reduce emissions fast 
enough to stop climate change. Even if all emissions were stopped 
today, global warming could continue for decades. In that case it may 
be necessary to reduce the carbon dioxide concentration in the 
atmosphere. Air capture is one of the few technologies that could 
accomplish this in a reasonable amount of time. Yet one should not rely 
on air capture to achieve a last minute rescue. It is worth noting that 
an even a short excursion above the safe threshold poses a severe risk 
of irreversible damage. For example, it is not possible to refreeze 
glacier fast enough to prevent irreversible damage.
    Finally, air capture is not something that would be implemented at 
the expense of other alternative energy forms. Indeed, air capture 
provides an opportunity to give these alternatives a much wider range 
of applications. It can provide carbon dioxide for growing algae for 
biofuels, which need carbon dioxide supplements to maintain rapid 
growth. Air capture could also provide carbon dioxide for the 
production of synthetic fuels from carbon dioxide, water and renewable 
energy. A world with ample renewable energy could produce synthetic 
fuels to solve the complex problem of storing energy on board of 
vehicles and planes.
    It is refreshing to see a bipartisan approach to finding a 
practical solution to the climate change/energy conundrum. The Barasso-
Bingaman bill makes a strong statement that technology is important for 
solving the climate change problem. I believe that carbon capture from 
dilute sources is of particular long-term importance. Unlike most CCS 
technologies, dilute capture development would benefit from a prize. 
After development has begun, I would hope for deeper government 
involvement for this new and vital technology.




</pre></body></html>
